<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                    INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES APPROPRIATIONS FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                              __________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                    KEN CALVERT, California, Chairman

  MICHAEL K. SIMPSON, Idaho          BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                 CHELLIE PINGREE, Maine
  DAVID P. JOYCE, Ohio               DEREK KILMER, Washington
  CHRIS STEWART, Utah                MARCY KAPTUR, Ohio
  MARK E. AMODEI, Nevada
  EVAN H. JENKINS, West Virginia

  
  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.


               Dave LesStrang, Darren Benjamin, Betsy Bina,
                   Jaclyn Kilroy, and Kristin Richmond
                            Subcommittee Staff

                                ________

                                  PART 8

                                                                   Page

  Supplemental Oversight--U.S. Forest Service....................     1

  Supplemental Oversight--Department ofthe Interior..............    39  
  
  



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                   

                               _____

          Printed for the use of the Committee on Appropriations

                                ______

                    U.S. GOVERNMENT PUBLISHING OFFICE
 28-253                     WASHINGTON : 2018

                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                    NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                    MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                             PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                      JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                    ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                          DAVID E. PRICE, North Carolina
  KEN CALVERT, California                        LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                             SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                     BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania                  BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                            TIM RYAN, Ohio
  KEVIN YODER, Kansas                            C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                         DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                     HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                      CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee              MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington              DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                           MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California                   GRACE MENG, New York
  ANDY HARRIS, Maryland                          MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                           KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                         PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus

 
                   Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   
                                   


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2018

                              ----------                              

                                      Wednesday, November 29, 2017.

              SUPPLEMENTAL OVERSIGHT--U.S. FOREST SERVICE

                                WITNESS

TONY TOOKE, CHIEF, U.S. FOREST SERVICE

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The committee will come to order.
    Good morning. I would like to welcome Chief Tony Tooke of 
the U.S. Forest Service to the subcommittee. This is his first 
appearance as chief at an Interior and Environment Subcommittee 
hearing. We look forward to your testimony today and working 
with you in the future.
    The subcommittee's oversight of annual and supplemental 
appropriations requests, as well as the spending decisions of 
the agencies under its jurisdiction, is critical to ensure 
taxpayer funds are used appropriately and wisely. We hold this 
hearing to review the fiscal year 2018 Hurricane Supplemental 
appropriations request for the Forest Service, as submitted to 
the committee by the Office of Management and Budget on 
November 17.
    Before we get into the details of the request, first I must 
express my admiration and appreciation for the Forest Service's 
staff, especially those affected by this year's hurricanes and 
fires. Their determination to rebuild and their willingness to 
carry on in tough times are what make the Forest Service a 
truly great agency.
    Chief, your staff in Washington was most helpful to the 
subcommittee as we sought information on how this year's 
hurricanes and fires affected Forest Service facilities, 
programs, and activities. My staff and I could not do our work 
without them.
    I specifically want to call out Sheri Elliott for her work 
as acting budget director for the past 1.5 years. She will be 
leaving D.C. soon and heading back to sunny California. For 
that, I cannot blame you, but we will miss you.
    Mr. Simpson. Was it something we said or did? [Laughter.]
    Mr. Calvert. She has been an immense help in improving the 
service's accounting, budgeting, and financial management 
systems and protocols. Her work ethic and legacy will live on 
with your new acting budget director John Rapp. I am sure the 
service has a sound financial foundation for the 21st century.
    So, Sheri, thank you for all you have done for us here in 
the last numbers of years.


                 supplemental request


    The Forest Service requests $96,652,000 for a variety of 
activities to help our national forests recover from Hurricanes 
Harvey, Irma, and Maria. These activities include debris 
removal, stream cleanup, rebuilding facilities, repairing roads 
and bridges, and providing technical assistance to States and 
private forest land owners to support their cleanup efforts and 
control invasive species.
    Most of the request, approximately $81 million, is needed 
in Puerto Rico for El Yunque National Forest and the 
International Institute of Tropical Forestry. El Yunque is 
unique in that it is the only tropical rain forest in the 
national forest system. The forest is special, and the 
institute does important work for tropical forests around the 
world. These places are well worth the effort needed to repair 
and restore them.
    As we review this supplemental appropriations request, we 
will be keeping our eyes open for duplicative efforts; a 
demonstration of a clear role for the Federal government; and 
safeguards against waste, fraud, and abuse. We also will want 
to discuss the outlook for recovery in the affected forests and 
whether or not supplemental funds may be needed in the future.
    Again, thank you, chief, for being with us today. Before we 
turn to you, I am going to yield to my friend and colleague, 
our ranking member, Ms. McCollum, for any remarks she may have.
    Ms. McCollum. Thank you, Mr. Chairman.

                    Opening Remarks of Ms. McCollum

    Chief, I am very happy to join the chairman in welcoming 
you this morning to your first public hearing before this 
committee. Congratulations on your new position.
    And, Sheri, we wish you all the best in the years ahead in 
warm California. I say that being from Minnesota with our 
winters.
    Chief, as the chairman pointed out, you have an impressive 
background, and I think the depth of your experience across 
different areas of the Forest Service will provide a wonderful 
foundation for your new role.


                          supplemental request


    And as the chairman pointed out, today, we are discussing 
the details of the administration's most recent request, the 
supplemental appropriation. This request is to identify needs 
to fund and address the historic widespread destruction caused 
by hurricanes and wildfires to parts of our country earlier 
this year.
    Sadly, the Trump administration's last supplemental 
request, however, falls short in many areas, including 
education, health, and housing. I am very concerned that the 
Trump administration will see the suffering of the people of 
Puerto Rico and the U.S. Virgin Islands continue, and they will 
have to wait even longer to rebuild their homes and their 
lives.


                            wildfire funding


    As specific to your agency, I find it disappointing that 
the request includes only a passing reference to the wildfires 
in the West and did not request any funding to deal with the 
aftermath of their devastation, something I am sure this 
committee will discuss in depth.


                         post-fire restoration


    I believe the Forest Service should be conducting post-fire 
restoration work, and I hope today we can have a productive 
discussion about what work would look like, how it would 
benefit the forest, and what we can do to be part of that.

                       HAZARDOUS FUELS REDUCTION

    I also believe that Congress needs to seriously consider 
providing funds for fuel reduction and restoration projects to 
treat additional areas for hazardous fuels. I know the backlog 
that has accumulated is all over the country.

                          SUPPLEMENTAL REQUEST

    The supplemental request for the Forest Service is $97 
million, and these funds are for restoration work in the 
national forest system, to assist State and private land owners 
in assessing damage, and conducting restoration.
    The hurricanes caused profound damage in the natural 
landscape. El Yunque rain forest, as the chairman pointed out, 
really is a national treasure. It was decimated, and 
catastrophic destruction to this forest will cause long-lasting 
harm to the ecosystem and to the economy of the island.
    I look forward to hearing more from you today about the 
specific request, including the Forest Service plans to 
accomplish recovery and reforestation. I am also interested in 
hearing your perspectives on the timeline and the challenges 
ahead, and how we can work together to achieve our mutual 
goals.
    Thank you, Mr. Chairman.

                          CALIFORNIA WILDFIRES

    Mr. Calvert. Thank you. I mentioned to the gentlelady that 
I was up in California in Mike Thompson's district during the 
break. I met with some of the chief's folks up there, local 
firefighters, and CAL FIRE. It was truly a devastating event. 
We are going to be working with every one of you to make sure 
that California is not forgotten in all of these disasters.
    This has been a tough disaster year, probably the toughest 
since I have been in Congress, maybe the toughest in the 
history of the United States. So we have a big challenge ahead 
of us as we try to rebuild these areas, not just in the 
hurricane area. But with wildfire in the West, we know it is as 
much of a catastrophe as a hurricane or a tornado or an 
earthquake.
    We are going to get your opening statement, and I will get 
into the fires specifically. I just wanted to bring up what is 
happening in California.
    With that, chief, you are recognized.

                    Opening Statement of Chief Tooke

    Mr. Tooke. Mr. Chairman, and members of the subcommittee, I 
really appreciate you inviting me here to testify on the 
President's request for supplemental funding for the Forest 
Service in response to the 2017 hurricane season.
    It is really an honor to be here today. We are deeply 
appreciative of the support that we have always received and 
continue to receive from you all. We are especially 
appreciative of your long-term support to find a fire-funding 
solution and to work with us on repayment of fire transfer.
    Having spent several years in four of the southern States 
in the southern coastal plain, I am very familiar with response 
to hurricanes. For example, in 2004, we had multiple hurricanes 
in the State of Florida when I worked there, and then in 2005 
with Hurricane Katrina.

                         2017 HURRICANE DAMAGE

    Last year, in 2017, we had three hurricanes in rapid 
succession that struck the South, the islands of the Caribbean, 
as well as Texas, Alabama, Georgia, Florida, and South 
Carolina, from the three hurricanes that you mentioned 
previously, Harvey, Irma, and Maria.
    The hardest hit was Hurricane Maria. This was a Category 4 
storm that struck Puerto Rico on September 20. It toppled trees 
and power lines. It damaged facilities, infrastructure, homes, 
businesses, communities. With more than 30 inches of rain, 
there was very much widespread flooding.
    Experts say, and what I have read and been told, is that 
this was the most devastating storm to hit the island since 
1932. Damage from Maria also included natural resources on the 
30,000-acre El Yunque National Forest, administrative buildings 
there, roads, trails, bridges, popular tourism spots. It 
heavily damaged the International Institute of Tropical 
Forestry, which is a research unit there.
    We have about 89 employees there that have suffered heavy 
losses from their homes, the communities. Their lives have been 
impacted.
    Me, personally, I was the regional forester there for 
almost 3 years. I was in the process of transitioning to this 
job as chief whenever this particular storm struck. So I know 
many of the employees personally both for the forest and at the 
research institute, as well as a few members of their families. 
So I am very much personally committed to this recovery, as I 
would be to any employees anywhere from a hurricane or fire, or 
the citizens that we serve.

                           HURRICANE RESPONSE

    So our first part of the response focused on employee 
welfare. We did a lot to locate our employees. This took up to 
2 weeks to locate all 89 employees that we have at the research 
unit and there on the forest. We had daily calls with the 
forest supervisor and the station director using satellite 
phones. We optimized the flexibilities and authorities that we 
have to try and improve, for our employees to be able to get 
the basics of life--a hot meal, supplies, drinking water--and 
get back to normalcy as soon as possible.
    We also answered the call to support FEMA. We do that. In 
Puerto Rico, for example, we have had incident command teams 
deployed. We have had crews that helped reopen roads, helped 
remove downed trees and power lines, cleared debris. This was 
pretty difficult in some of the mountainous communities there.
    We also supported the distribution of meals, supplies, and 
water. We have had law enforcement officers there continually 
for public safety.

                           WILDFIRE RESPONSE

    And we did all this while we continued to support a record-
breaking fire season in the West. As you alluded to, Mr. 
Chairman, our employees have literally been in some type of 
emergency response since October 2016 when fires began down in 
the southern Appalachian Mountains.

                        POST-HURRICANE RECOVERY

    So while other States that sustained damage are returning 
to normal more quickly, it is going to be a longer haul there 
in Puerto Rico, for example, for the El Yunque forest and the 
research unit.
    Real quickly, I want to talk just a little bit about the 
role that the forest plays there on the island. It very much 
contributes to the economy and the quality-of-life there. A 
tourism economy, it is a popular destination spot. It welcomes 
about a million visitors per year. It contributes $6.5 million 
to the local economy. It provides 20 percent of the drinking 
water. Water production is estimated to be about $25 million 
annually from the forest. So this rebuilding effort is going to 
help restore our abilities to do that.
    Employees are rebuilding their lives slowly. Some of them 
have had to make tough choices, as the schools are not open. 
They remain closed. I know one employee, for example, a mother, 
sent her child here to the mainland to resume school 
attendance.
    My acting associate chief and acting regional forester for 
the southern region are on the way to Puerto Rico right now to 
visit with our employees firsthand, and also get a look at the 
long-term recovery efforts. So I am looking very much forward 
to hearing what they report back.
    We are turning our full attention to the recovery of the 
forest and the facilities. We have requested $96 million. 
Eighty percent of it is going to go to Puerto Rico. We have 
forests in the other five impacted States.
    But there is a lot of work ahead, especially in Puerto 
Rico, that fits with our national priorities, from rebuilding 
infrastructure, roads, bridges, administrative sites, 
recreation sites, doing erosion control, repairing these 
tourist spots, repairing the offices, and assistance to the 
States and private land owners for different things.
    We will very much continue to support our employees in 
every way possible, as well as the citizens.
    Also, part of this will go to resuming our research work 
there, for example, at the institute.
    So we deeply appreciate your support on this long road to 
recovery on these forests in the South, and particularly in 
Puerto Rico. It means a lot to our agency. It means a lot to 
our employees. It means a lot to the citizens. It means a lot 
to me personally.
    So thank you, Chairman Calvert, for providing me with the 
opportunity to appear before you today. I look forward to 
working with the subcommittee on the supplemental request, and 
I will be glad to answer any questions.
    [The statement of Tony Tooke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    Mr. Calvert. Thank you. Thank you for your opening 
statement.
    As we discussed, it really has been a horrible year for 
natural disasters. However, unlike any other area in the world, 
I think in the United States, we respond and we rebuild.

            HURRICANE DAMAGE ASSESSMENTS

    So in that vein, have all the damage assessments related to 
hurricanes been completed?
    Mr. Tooke. We have completed preliminary assessments. The 
southern region has developed a 12-month draft recovery plan 
that we will continue to update. But preliminary assessments 
have all been completed.
    I would expect that by the end of the calendar year, or 
very early 2018, we will have more sound estimates, and then we 
will update that, as guided by this recovery plan, over the 
next 12 months. Some things may not be found for 3 to 5 years, 
but we think we will be able to get the majority of the 
assessment work done and refined in the first 12 months.

                      WILDFIRE DAMAGE ASSESSMENTS

    Mr. Calvert. As it regards to damage assessments to this 
year's fires, have they been completed also?
    Mr. Tooke. The majority of the damage assessments on the 
post-fire recovery work, I think, in most of the western 
regions, are done. I cannot say that for sure, but I think we 
are already into some of that recovery work as well, the post-
fire recovery work.
    Mr. Calvert. Do you expect any other additional assessments 
other than what we just talked about?
    Mr. Tooke. Not that I am aware of, unless we get surprised 
by something that we do not know about. And this request is 
just for the damages from the hurricanes.

                          SUPPLEMENTAL REQUEST

    Mr. Calvert. Finally, do you expect additional funding may 
be necessary after this supplemental to get back to normal 
order?
    Mr. Tooke. We feel like this request of $96 million will 
cover the needs. Like I said, unless there is something that 
surprises us later that we do not anticipate right now, we 
think this will cover the needs.

                            SANTA ROSA FIRES

    Mr. Calvert. Real quickly on the Santa Rosa fires, for the 
record, can you describe the Forest Service's role in 
extinguishing those fires?
    Mr. Tooke. We work with CDF. We have agreements. We work 
through our Incident Command System. We work with the Federal 
and State partners and locals through that system. And we 
definitely supported it. We stayed as long as they needed us. I 
think at one time, I may have to correct this, but I think we 
had as many as 1,600 Forest Service employees supporting that 
effort.
    [The information follows:]

                            Santa Rosa Fires

    At the height of response, 1,535 Forest Service firefighters were 
mobilized to the fires around Santa Rosa.

    Mr. Calvert. I was there, and thank you for that, and the 
local folks thank you, and the State of California.

                          WATERSHED PROTECTION

    One thing that we are concerned about, obviously, on top of 
the debris removal, is watershed protection. California, we 
need the rain, but it will be on top of these wildfires. The 
hillsides, as you know, are totally denuded of any vegetation, 
so we are very concerned about that.
    Mr. Tooke. Yes, sir. It is not just a problem of national 
forests. It is a problem everywhere with fires. I think there 
is an article this morning talking about the fires there and 
the impacts for California.
    Mr. Calvert. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I appreciate, once again, your sharing the stories of the 
employees. I read your full testimony, and it is heartbreaking. 
They are expected to get out and do a job and do assessments 
and take care of their families. At the same time, as your 
testimony pointed out, they stand in line waiting for gas to 
get to work and just do the basic day-to-day things that all of 
residents have to do. So please let your employees know that we 
are thinking of them.

                          SUPPLEMENTAL REQUEST

    In your supplemental, in looking through your testimony, 
and the questions that the chairman was asking, do you think 
there are going to be other things coming forward that we are 
going to need? I am looking at things that are part of your 
testimony like replace equipment, radios, networks, telephones, 
computers, printers, plotters, and copiers. You are going to 
have to go back out and resurvey land, both in Florida and 
Puerto Rico.

                            HURRICANE DAMAGE

    Now it looks like, in Florida alone, you lost over 50 
percent of trees in one of the national forests, damaged to the 
extent that there is no longer marketable timber sales. That 
affects your projected revenue stream into the future.
    At this point, there is such an urgency to deal with the 
emergency, and complete the kind of triage that your employees 
go in and do, such as dealing with invasive species. It is 
going to be, as you pointed out, maybe 3 years before we know 
everything.

                          SUPPLEMENTAL REQUEST

    So I think that we should seriously be expecting another 
supplemental request or something in a future budget request 
that is going to be a significant increase to the Forest 
Service. You must have only begun to start printing out on a 
spreadsheet what all these things are going to cost as you 
continue to find things.
    Is that correct?
    Mr. Tooke. Based on what we know right now, and we have 
experience with responding to storms, hurricanes, so we used 
that experience in these estimates, and I do not anticipate us 
requesting any additional funding beyond this $96 million.
    But as we go through this next 9 months, we are now into 
the 12-month recovery plan that they have laid out, we could 
find something that we do not know about or did not anticipate. 
But based on what we know right now, we will not need any more 
than this.
    Ms. McCollum. Certainly, if you find something, I, for one, 
and I will not speak for the entire committee, but I am 
thinking they would probably agree with me, would encourage you 
to come forward. We really would not be shocked, surprised, or 
disappointed if you came through and asked for some more.

            SUPPLEMENTAL REQUEST: STATE AND PRIVATE FORESTRY

    I would like to touch just for a second on State and 
private forestry, because this is one of the things that the 
Forest Service--and I will also say one of your partner 
agencies, Fish and Wildlife--is noted for. You are hand in hand 
working with local partners, working with people in the private 
sector.
    Your request for State and private forestry is only $7.5 
million. How much of that is for damage assessment and 
technical assistance? Does that reflect the total need? Does 
that reflect California?
    Mr. Tooke. It just reflects the need for the assistance for 
hurricane recovery in those southern States that I mentioned, 
and Puerto Rico. The $7.5 million, $6 million of it will go to 
providing technical assistance to private land owners or to 
States for land-management planning, for doing stewardship 
planning, for doing assessments, for doing damage assessments. 
$1.5 million will go to things like assessing forest threats or 
invasive species, and mitigation efforts for those.
    So those are the kind of activities that the $7.5 million 
for State and private will go for.

                         POST-FIRE RESTORATION

    Ms. McCollum. I know the chair will follow up with 
questions either today or in the future on the California 
wildland fire. So this does not include, if I heard you 
correct, anything for State and private forestry there? Does 
the supplemental request anything for post-fire restoration 
needs?
    I have not seen the devastation in California, but I have 
been around a few forest fires in my life. I know that there is 
a lot of activity that needs to happen with restoration. When 
will we have an idea about what you will need for invasive 
species, noxious weeds, restoration of soils? When do you think 
the timeline of that would be, so that California can start its 
recovery?
    Mr. Tooke. So this request is just for the hurricanes. We 
are using the funding that we already have for the post-fire 
work, whether it is on national forests or whether it is 
through technical assistance for State and private lands.
    Ms. McCollum. So than, if I am hearing you correctly, for 
this devastating fire in California, you are taking out of what 
has already been allocated to do your day-to-day workload, what 
has been maybe anticipated for wildland fires, you are taking 
that out of the regular budget, which I would think would 
create more backlog for doing fuel reduction and restoration 
projects in other areas. Would that not be correct?
    Mr. Tooke. We have quite a backlog of work, on forest 
management work across-the-board, and so what we have to do 
with our current funding is set priorities based on the 
information we have and based on the assessments that we make. 
So that is what we are doing.
    Ms. McCollum. Thank you, chief.
    And to the chair and to the committee members, I think this 
has been an ongoing issue, which we have all been trying to 
deal with. Mr. Simpson's fire bill, as well as increasing 
funding to the Forest Service, would help with that.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Mr. Simpson.
    Mr. Simpson. Thank you.

                          SUPPLEMENTAL REQUEST

    So following up on what the ranking member just said, to 
get this straight, the $97 million or $96 million, whatever it 
is, supplemental that is requested is only for the hurricanes?
    Mr. Tooke. Yes, sir.
    Mr. Simpson. Okay. We have mentioned Puerto Rico a lot when 
we talk about this. I still have not heard any mention of the 
Virgin Islands. Do you have any role in the Virgin Islands?
    Mr. Tooke. Yes, we do.
    Mr. Simpson. Is it significant there?
    Mr. Tooke. Not like Puerto Rico, but there is some there. 
Then the other two States that would be probably the most 
impacted besides Puerto Rico are Texas and Florida.

                            WILDFIRE FUNDING

    Mr. Simpson. Getting back to the supplemental request, I am 
a little concerned that we are using existing funds in the 
appropriation to address the wildfires. That has been a 
complaint that we have had for a long time. You have not had a 
choice but to do that.
    And I will say that I want to thank you and your staff for 
the help you have been in trying to do this wildfire fix that I 
have been working on for 4 or 5 years, and I think all the 
members of this committee have also. I am hopeful we are going 
to get it done this year, and it seems like we have some 
agreement between leadership in the House and the Senate and so 
forth, that a budget cap adjustment is the right way to go, 
instead of some of the other alternatives that other people 
have looked at.
    The one thing that seems to be missing, is the need to 
address the 10-year average. Could you explain to us the 
importance of addressing the 10-year average as we attempt to 
solve the issue of fire borrowing?
    Mr. Tooke. So we need a fire-funding fix that addresses the 
rising cost of the 10-year average and then treats natural 
disaster fires like natural disasters, where the funds come 
from some other money besides our regular appropriations that 
affect our other programs at work, including the ability to 
manage forests to reduce the risk of fire.
    The 10-year average is rising. And this past year, for 
example, we are now over 55 percent of our budget going to fire 
suppression. So mathematically speaking, in recent years, we 
are adding very costly fire season years to that 10-year 
average, and then some of the years way back there that were 
less costly are dropping off.
    Fire seasons are longer. The conditions are worse. And the 
costs are going up like those. So if the 10-year average 
continues to rise against basically what has been a flat budget 
for us, then it affects our other programs, including the 
ability to manage forests.
    For example, 80 million acres of the national forest system 
is currently at moderate to high-risk of insect, disease, or 
fire. A third of that would be rated at very high risk. And so 
it reduces our ability to be able to address those risks and 
reduce the risk of fire.
    I brought a couple maps with me. I like maps, and one of 
these shows the wildfire risk map. The other one is the insect 
and disease. So what I would like to have is an increased 
ability to address these different risks.
    But these maps, that is the wildfire one, and this is the 
insect and disease one. But basically, the brighter the color, 
the higher the risk. That is basically what that amounts to. So 
you can see a good picture of the problem.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mr. Simpson. So essentially what you are saying is, if we 
do not address the 10-year average, that 55 percent is going to 
continue to grow.
    Mr. Tooke. Yes, sir.
    Mr. Simpson. Fifty-five percent of your budget.
    Mr. Tooke. And according to our projections, even if we 
have a low to moderate fire year the next few years, it is 
going to grow over $500 million over the next 5 years. The 10-
year average will grow by that much.
    Mr. Simpson. So while doing the budget cap adjustment is an 
important step, addressing the 10-year average is a necessary 
step in trying to do the full fix to solve the wildfire 
funding.
    Mr. Tooke. It will be a great help.

                  REFORESTATION

    Mr. Simpson. Okay. One last question. I am under the 
impression, and I was just wondering if it is true, that when 
you go out and do timber sales, that there is a requirement 
that you do reforestation and that timber companies do 
reforestation activities. But there is no requirement that, 
after a wildfire, you do reforestation? You can use funds as 
they're available but there is no requirement in the law that 
you do reforestation after a wildfire. Is that true?
    Mr. Tooke. Yes. We do assessments, and we set priorities, 
and then we try to reforest as we get the resources to do it.
    Mr. Simpson. Would it be helpful to have a change of 
statute, so that you had to do reforestation after wildfires? 
Because I am as worried as Ken is about what is going to happen 
after these wildfires and all of a sudden the rains come and 
the snows come, and pretty soon all of that material ends up in 
my local rivers.
    Mr. Tooke. Yes, the more resources we have available to do 
the work, we will reforest much more quickly.
    Mr. Simpson. Thank you. Be sure to pass along to all your 
employees on behalf of this committee, how much we appreciate 
the work that they are doing and echo what the chairman said.
    Mr. Tooke. Thank you.
    Ms. McCollum. Mr. Chair, a question on the map really 
quick? I am looking at the insect and disease risk map, and 
then I am looking at the potential for wildfire in the 
contiguous 48. So do you see, if we are able to address what is 
happening with the insect damage and disease, do we have the 
potential of changing the map that is showing where the 
potential risk for wildfires are?

                       HAZARDOUS FUELS REDUCTION

    Mr. Tooke. Yes. It will not be the same everywhere, but 
what our science, data, and monitoring shows, whenever we do 
thinning, for example, and reduce hazardous fuels, about 85 
percent to 90 percent of the time, sometimes more, we 
positively affect the fire behavior and lower the catastrophic 
risk of fire damage when we do those treatments.
    Mr. Calvert. So am I getting that right, timbering 
operations in those areas helps the health of the force?
    Mr. Tooke. Yes, sir. I will use every tool that we have 
available to us, every authority we have available, from timber 
sales to noncommercial hazardous fuels reduction, to managing 
natural wildfire ignitions, to doing prescribed burning. We 
need to use, sometimes, a combination of those tools.
    Mr. Calvert. I am going to recognize Mr. Kilmer, but I 
could not help but notice, when I look at this wildfire map, 
that there will be nothing left in the West if high risk areas 
caught on fire. So we have to get on this as quickly as 
possible.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Chairman.
    And thanks for being with us. I actually want to follow up 
on something Mr. Simpson asked.
    So if Congress fails to take action on his bill, or some 
form of his bill, do you have an estimate of what percentage of 
your budget will end up going to this fire piece?

                       PROJECTED COST OF WILDFIRE

    Mr. Tooke. So we had a projection that it would be 67 
percent by the year 2025, but that was updated because 
conditions have changed, and they did not change in our favor. 
Based on the projections we have right now, we are going to be 
at that 67 percent in 2021. That is 4 years, less than 4 years.
    Mr. Kilmer. Okay. In your testimony, I think you do a good 
job of laying out what the priorities are on the disaster front 
and why those investments are needed. I want to ensure that 
communities recover. I also want to make sure that you are able 
to execute on the other missions that you have, whether that be 
road maintenance or forest management or what have you.

                          SUPPLEMENTAL REQUEST

    So what happens if Congress does not provide the 
supplemental funding that the agency has asked for?
    Mr. Tooke. We will have to really look at our priorities, 
and we will have to prioritize the work. And we may have to 
take money away from another forest or another place or another 
community. We will go through that kind of thinking and that 
kind of process.
    I feel like there is nothing that we do that is not 
important, but we will have to put resources toward what we 
feel like is the most important at the time.
    Mr. Kilmer. Do you have a sense already as to what will 
suffer if Congress fails to act on your request?
    Mr. Tooke. Well, for example, Puerto Rico, if we do not 
provide some resources there, there is going to be a lot. The 
forest is going to remain closed. It is going to have a huge 
impact to the local economy. Like I said earlier, for example, 
the forest contributes $6.5 million to the local economy. And 
the drinking water, 20 percent of it comes from the forest. And 
then annually, there is about $25 million in water production. 
So those are some examples of things that would be mightily 
impacted.
    Mr. Kilmer. Thank you.
    Thanks, Chairman.
    Mr. Calvert. Mr. Amodei.
    Mr. Amodei. Thanks, Mr. Chairman.

                          CAPITAL IMPROVEMENT

    Chief, I do not want to beat a--actually, in this 
community, I cannot use the phrase ``dead horse.'' I do not 
want to keep repeating things, but I want to make sure that the 
$96 million is for hurricane assistance recovery. There is no 
capital improvement, anything else like that in there, correct? 
You are fixing stuff that was there before, whether it is 
resource or capital-improvement-related, right?
    Mr. Tooke. No, sir. It is for the repairs, for the 
rehabilitation, for the recovery as a result of these storms.
    Mr. Amodei. Okay. I was not clear. We are not upgrading or 
adding to Forest Service assets. We are fixing what existed the 
day before the storm.
    Mr. Tooke. Yes, sir. This does not build anything new or 
bring something new to the table.
    Mr. Amodei. Okay. And then when you said assistance for 
different things, that is still limited by what you said and 
what Mr. Simpson said. The $96 million is for hurricane stuff.
    Mr. Tooke. Yes, sir.
    Mr. Amodei. Okay. And I also want to compliment you because 
it is hard not to get onto things that the ranking member and 
other members have talked about in the West. I understand that 
my colleague from Ohio was there and there are things that 
actually exist east of the Mississippi that are part of this 
country, and I look forward to learning more about those at 
some point in time.

                           DISASTER RESPONSE

    But anyhow, I notice when you talk about what you are 
planning on doing as far as triaging, for instance in Puerto 
Rico, that that looks like a pretty good starting blueprint for 
when we talk about how you triage those disaster areas that are 
elsewhere and from different natural disasters in terms of 
whether it is fire, whether it is flood, whether it is 
whatever.
    So I just wanted to say this looks like a pretty 
comprehensive look at an area that you folks have some 
responsibility in. And from an oversight or future thing, it 
would be like, hey, when we come back, for instance, to talk 
about Northern California, we are kind of looking at the same 
sort of stuff that happened in those circumstances as we have 
to what looks like a pretty comprehensive response to Puerto 
Rico.
    So I know part of that needs legislation, but forewarned is 
forearmed.

                PRIVATE TO FEDERAL AFFECTED AREAS RATIO

    Then the final thing is, and I know you probably did not 
come to the hearing for that, but I would be kind of curious to 
know what the property ownership ratio was. For instance, the 
Northern California fire, when we talk about Santa Rosa, how 
much of that was private versus how much of that was actually 
Forest Service ground?
    So we will get back to your office on that. I just wanted 
to give you kind of a little heads-up for your staff folks to 
give us an idea.
    [The information follows:]

                Private to Federal Affected Areas Ratio

------------------------------------------------------------------------
                                 NEVADA
-------------------------------------------------------------------------
                                             Fires           Acres
------------------------------------------------------------------------
USFS....................................           82              7,268
DOI.....................................          523            877,637
State...................................           85            279,599
C&L *...................................           68             55,140
DOD.....................................            3             10,015
    Totals..............................          761          1,229,659
------------------------------------------------------------------------


------------------------------------------------------------------------
                               CALIFORNIA
-------------------------------------------------------------------------
                                             Fires           Acres
------------------------------------------------------------------------
USFS....................................        1,489            484,637
DOI.....................................          488             90,762
CALFIRE.................................        6,975            516,927
C&L *...................................           44              2,028
    Totals..............................        8,996          1,094,354
------------------------------------------------------------------------
* C&L--County and Local.


    The reason that I am asking that is because, in my State, 
where 86 percent of it is owned by the Federal Government, not 
the Forest Service, mostly BLM, but when we talk about things 
like fires and suppression costs and who is responsible for 
what, who owns the property gets to be a pretty important thing 
in terms of billing private entities and local governments in 
my State for Federal fire suppression efforts on land that is 
not Federal.
    So full disclosure, we will be looking for that information 
to see how that works.
    Mr. Tooke. Okay.
    Mr. Amodei. Thanks.
    Mr. Tooke. Thank you.
    Mr. Amodei. I yield back, Mr. Chairman.
    Mr. Calvert. Thank you.

                          WATERSHED PROTECTION

    As you know, in the West, we have these declared disaster 
areas, so as we do these supplementals, I think we do have some 
flexibility to help these communities, especially right now 
with watershed improvement, which Mr. Simpson mentioned, we do 
not want to have another disaster this winter.
    So I am hopeful that we can work together to look at how we 
can resolve some of these watershed issues, because we will 
have a problem this winter, if we do not do anything. Some of 
these areas just do not have enough resources to deal with it.
    I think the gentlelady from Ohio is next.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome, Chief Tooke. It is really good to have you here. 
Thank you for your lifetime of service to our country.
    I will disclose that when I was in college, there was 
something called a Kuder preference test, and I took it. It was 
about what your career will be.
    Well, it was not Congress. They actually said I was most 
suited to be a forest ranger. So I feel very comfortable. I 
often do feel like I am in a forest. Not only do I not 
sometimes know what all the trees are, but I do not have a 
compass.
    So I am sure you have all the requisite skills necessary to 
help us repair what needs to be done for our country and our 
territories.

                              PUERTO RICO

    I wanted to ask you, for Puerto Rico, I represent a vast 
Puerto Rican population living in Ohio, and I wanted to ask you 
approximately what percentage of the land area of Puerto Rico 
is national forest?
    Mr. Tooke. I do not have the percentage, but the forest 
there is 30,000 acres, if that gives you a little bit of an 
idea.
    Ms. Kaptur. Thirty thousand acres.
    Mr. Tooke. It is fairly small.
    Ms. Kaptur. Well, 30,000 acres is a pretty--I mean, that is 
sizable footprint.
    Mr. Tooke. Is big. Not as big as our other national 
forests, most of them.
    Ms. Kaptur. Right. But Puerto Rico is just a little bit 
bigger than my congressional district in land area.
    So what would really be helpful, as we think about spending 
money on Puerto Rico--I am a land planner by training. It 
drives me crazy that we do not have maps like this for Puerto 
Rico, so if we sit on the Energy Committee and we are talking 
to the Army Corps of Engineers and we are looking at where 
powerlines are, and then you have forests, we do not see how 
these things converge so that we spend the money wisely, and we 
try to build forward from whatever remains.
    Congressman Amodei talked about triage. Well, Puerto Rico 
is declining in population. It has been for almost 2 decades. 
There may be some communities that are depopulated where we 
could expand the forest if the people in Puerto Rico want to do 
that, if the leadership down there wants to do that. Then we 
could make some really wise choices, as we try to replant, for 
example.
    So if you have such maps available, or if FEMA has them, I 
do not think this committee has ever seen them. It would be 
nice to know where we could do some extra good if we could 
better focus ourselves on a really helpful map.

                  POST-HURRICANE RECOVERY: PUERTO RICO

    I wanted to also ask, do you know how many trees have to be 
removed and possibly replanted in Puerto Rico? Do you know that 
yet?
    Mr. Tooke. I do not know about the removal. The El Yunque 
National Forest is the only tropical rain forest in the 
national forest system. Typically, they will recover, reforest 
fairly fast after a storm event. What will happen, where there 
is a lot of damage or downed trees, where it creates a way for 
sunlight to hit the forest floor, the first thing that is going 
to come back is the understory, things like ferns and those 
kinds of things. Then it will be followed by some of the trees.

                            INVASIVE SPECIES

    One of our big worries is the very rapid colonization of 
invasive species. So that is something we are going to be 
looking out for. I do not have the list right in front of me, 
but there are four or five invasive species, including invasive 
trees, that we expect will come back. That is something that we 
will have to deal with in the future. It will not be a short-
term thing. We will have to deal with that over a long period 
of time.

                  POST-HURRICANE RECOVERY: PUERTO RICO

    Ms. Kaptur. How many people are working in Puerto Rico now 
for the Forest Service or are on contract to the Forest Service 
to clean up and replant? And are more people needed?
    Mr. Tooke. We have 89 of our own employees there. Some of 
them are able to come back and work more regularly than others. 
It just depends on how they have been impacted.
    The facilities that they are trying to come back and work 
in are very impacted, so it affects how they can work in those.
    We have a lot of personnel down there supporting them. I do 
not have the exact count, but we can get back with you on that.
    [The information follows:]

                              Puerto Rico

    As of December 6, 2017 El Yunque had 60 temporary hires (including 
27 Department of the Interior, Fish and Wildlife Service employees 
Administratively Determined (AD), 73 contracted personnel, 52 Forest 
Service employees assigned to the Incident Management Team, and 27 
Forest Service Employees permanently assigned to El Yunque National 
Forest.
    The International Institute of Tropical Forestry (IITF) has 
approximately 49 Forest Service employees permanently assigned to the 
Institute, 10 Forest Service employee assisting with the recovery, and 
20 contracted personnel supporting Hurricane Maria recovery efforts.

    Ms. Kaptur. All right. And if you can produce a map, that 
would be really helpful.
    Mr. Tooke. We will follow up on the map, too. Thank you.
    [The information follows:]

                              Puerto Rico

    The total area of the PR Archipelago is 8,938.97 Km\2\. El Yunque 
has a total area of 115.35 Km\2\. This is approximately 1.29 (1.3) 
percent of the total area of the Archipelago. All FS properties account 
for a total of 118.8Km\2\.

    Ms. Kaptur. Will we have a second round, Mr. Chairman?
    Mr. Calvert. Maybe. We will see how the time goes.
    Mr. Joyce, do you have any questions?
    Mr. Joyce. Thank you, Mr. Chairman. If the gentlelady from 
Ohio wants to continue, I will give you some of my time.
    Ms. Kaptur. You are really wonderful to do that.
    I wanted to ask about, parochially for Ohio and Michigan, 
we do not light up red on any map here, but we have major 
problems in places like Cleveland, which used to be known as 
Forest City. Ohio and Michigan have to replant 20 million 
trees.

                 EMERALD ASH BORER

    Congressman Calvert talked about California having 100 
million stumps that have to be removed, trees that have to be 
removed. We have 20 million that have to be replanted because 
of the emerald ash borer, and we do not have a solution for 
that.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    So you are sort of the king of oxygen. We need these trees. 
And Michigan and Ohio are very, very impacted.
    As we fund Puerto Rico and the southern States and the 
western States, does that mean it comes out of the meager 
budget for other places in the country that need help? I mean, 
how do you look at Ohio and Michigan in your planning?
    Mr. Tooke. We definitely have forest health issues in the 
East. You mentioned one of the major ones, which is emerald ash 
borer. There is also hemlock woolly adelgid as another example.
    I think for emerald ash borer, for example, I know the past 
2 or 3 years, we spent almost a half million dollars, I 
believe, in research and assessing forest health risk from 
that.
    So, yes, it is important, and we are definitely working 
with the States. We are doing research and doing all we can to 
address the forest health issues in the East.
    Ms. Kaptur. Thank you, Congressman Joyce.
    We share Lake Erie, and we need trees because of runoff and 
watershed issues in our part of the country. Lake Erie is 
dying, and that is not an overstatement. There is not enough 
focused attention on it--it is like everybody is in charge, and 
nobody is in charge. USDA does a little bit. Forest Service 
does a little where it can. But the filtration that is 
necessary, we do not have the solution in this freshwater 
kingdom.
    I just place that on the record for you. I also would 
appreciate your comments on a bill I have introduced called the 
21st Century Civilian Conservation Corps. I do not ask you to 
say it is a great bill or a bad bill. But based on your 
history, what could you recommend to me to improve it, so we 
could put to work large numbers of Americans helping you do 
your job.
    Thank you, Congressman Joyce. I hope to reciprocate.
    Mr. Calvert. Thank you.
    I do not know if you have any time left. [Laughter.]
    Mr. Calvert. If you want to ask a quick question, go ahead.
    Mr. Joyce. Those were pertinent questions for Ohio, and I 
appreciate you following up on that.
    Mr. Calvert. Okay.
    Mr. Jenkins, you are recognized.
    Mr. Jenkins. Thank you, Mr. Chairman.
    Two quick areas of inquiry.
    One, I appreciated in your opening remarks your reference 
to the fires in the Monongahela National Forest in West 
Virginia.

                       FIRE RESPONSE COORDINATION

    I think in our previous discussion, I raised just some 
anecdotal concerns about firefighting coordination between the 
national forests and local partners, and making sure we have a 
seamless plan, when it is game time, when it is go time, who is 
allowed to do what.
    I just raise the issue that, anecdotally, from some of the 
local partners, there is a little bit of a lack of coordination 
when that critical moment, most important, get on fire as quick 
as possible--resources were left not engaged because of some 
bureaucratic, ``This is our fire. We are going to fight it. We 
do not want you out here.''
    So just raising the issue of something I am concerned 
about, making sure we have good coordination. I do not know if 
you want to comment on that.
    Mr. Tooke. I do. I appreciate you raising that.
    For the most part, almost all the time, we have excellent 
relationships in working with the States, the local 
governments, and volunteers, especially in the East, as an 
example. But I am sure, every now and then, we get some 
localized issues that we need to address. I will be sure to 
follow up on this one.
    Mr. Jenkins. We would welcome having a debrief. Rather than 
Monday-morning quarterbacking, Monday-morning assessment from a 
constructive, ``We know it will happen again,'' in terms of a 
fire. Let's make sure we are----
    Mr. Tooke. I appreciate you bringing it up because we want 
to make sure it is ready to go, as you said, seamless. Before 
we get a fire, we need to work out any differences we have 
ahead of time.

                           TIMBER HARVESTING

    Mr. Jenkins. You know from our previous discussions and my 
questions in this forum, I am always concerned about the 
engagement, the ability to allow appropriate, proper 
harvesting, having some ability to forecast timber sales moving 
forward.
    The point I would like to make, obviously, we have had a 
particularly destructive year because of fires around the 
country. Our forest products are as critical as ever, and we 
have supply needs. I am a firm believer that we have not been 
harvesting in best practice management that should have been 
done in the Mon.
    You have graciously, very much appropriately, in my 
opinion, said, yes, we are going to get this on the right 
track.
    I guess one of my requests is, in addition to getting it on 
the right track in terms of the timber sales and the 
opportunity to harvest, trying to look at a longer term, not 
just a 1-year forecast, but trying to look 5 years down.
    As you know, our company folks who are gearing up, they 
need predictability. And having a moving target year to year 
does not make for a good business practice forecast.
    So my request is, if the Forest Service can give a little 
clearer indication not only for the upcoming year but for 
future years, 5 years down the road, so people can adapt and 
plan.
    Any comments, reactions?
    Mr. Tooke. Yes. Thank you.
    So in the past 2 years across the country, we have treated 
more of our forest than any 2-year period in over 2 decades. So 
we are getting more done, but it is not nearly enough. When you 
look at those maps, it is not nearly enough.
    And that is across the country, not just in the West, but 
it is in the East, it is in the South. We need to get increased 
results and outcomes on the ground, including on the 
Monongahela.
    When I visited with you before, and you shared some of the 
numbers that you had from the Monongahela, I went back and 
looked. And I know from fiscal year 2014 through 2016, and 
timber harvesting is one of the tools that we use to manage 
forests and reduce some of these risks, they were doing about 7 
million board feet per year on an annual basis.
    I appreciate what you are saying about long-term planning, 
because we have to have the infrastructure for us to be able to 
do forest management work to restore healthy, resilient 
forests. That is an important component.
    In looking to 2021, what the projection is, they did 11 
million board feet in 2017, and that is going to be almost 
doubled by 2021. So that is the pathway they are on, and we 
definitely want to do everything we can to keep them on that.
    Mr. Jenkins. Last comment. I have probably overstayed my 
time.
    In addition to being able to use these target numbers, we 
will be making sure that we have policies and practices that 
are allowed; required, that actually allow those numbers, 
whatever the appropriate number is to be achieved. I hear once 
again, anecdotally, that while that number might be a shiny 
object out there, what is imposed in the requirements and the 
limitations on how to get to that number make it economically 
infeasible.
    So it is the issue of, can you go in on the land? Do you 
have to do helicopter restrictions? These sorts of things. So I 
look forward to working with you not only to get a number out 
there that is goal-oriented but also a way to reach that that 
is reasonable, realistic, and environmentally appropriate.
    Mr. Tooke. Thank you. We will definitely do that.
    Mr. Jenkins. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. The point that the gentleman brings 
up, it would be a shame to bring imports from Canada for timber 
in these disasters, we have plenty of timber here in the United 
States. Obviously, we need to take advantage of the harvestable 
timber and put people to work, and, at the same time, rebuild 
our communities.
    Ms. McCollum.

                           CANADIAN WILDFIRES

    Ms. McCollum. Mr. Chairman, we are on the same track. I 
think in a future hearing, chief, you and the Forest Service 
could apprise this committee of what our Canadian neighbors to 
the north are doing, as far as fire mitigation and hazardous 
fuel reduction. They have had their fires, too, and we have had 
the smoke the Twin Cities now a couple summers. It is really 
something when you can smell smoke from Canada in a 
metropolitan area, in the middle of our State.
    So that was just a suggestion, in the future. You can get 
back to the staff on that.

                       BOUNDARY WATERS CANOE AREA

    I cannot help but look at this map and, all politics being 
local, I'm looking at Minnesota right now with the Boundary 
Waters Canoe Area. You were talking about the tropical forests 
being a special place. This is the most heavily visited 
wilderness area in our nation.
    Once again, I just want to show my appreciation for the 
Forest Service's withdrawal study. I have heard from people all 
around the country and all around the world grateful for the 
Forest Service taking the time out to do a study to make sure 
the wilderness is protected. If we start doing this sulfite 
mining--which I hope we do not do--all these mines leak, and 
the stress that they put on the forest and the timber there 
would be tremendous. It would change this map dramatically.
    So thank you for moving forward with that study.
    Mr. Chairman, I do think we need, because these fires know 
no borders, to be working together with Canada to suppress 
fires for air quality. I think it would be very helpful to know 
what the Canadians are doing. There are things we can work on 
and things we need to improve on, so that we keep our forest 
industry well and alive.
    Thank you, Mr. Chair.
    Mr. Tooke. Can I make a comment?
    Mr. Calvert. Certainly. Go ahead.
    Mr. Tooke. I will be meeting with my Canadian counterpart 
either in January or February, so I will know a lot more.
    Mr. Calvert. One last question. I have a couple questions I 
will submit to you for the record.

                          POWER GRID TURN OFF

    But there was a story in the LA Times the other day--not 
that I listen to the LA Times very often, but in this case, it 
made some sense. A simple but seldom-used tactic to prevent 
wildfire: turning off the power grid when you have high, high 
winds predicted.
    Are you aware of that concept?
    Mr. Tooke. Not until recently. We would support anything 
that reduces risk. But that would be something that would be 
left up to the local jurisdiction to make those----
    Mr. Calvert. So you never considered recommending it to 
fire-prone areas, that when you have a fire that you see 
coming, say in your area of jurisdiction, and you have power 
lines, you make a recommendation to turn them off?
    Mr. Tooke. We could provide information about fire risk and 
what we know, and from what our role is. Then it is left up to 
the local jurisdictions to balance that. They would have to 
make those decisions about whether, for example, in this case, 
turn off power or not, and how to balance that out versus the 
risk.
    Mr. Calvert. Well, that is a debate that is going on in the 
West now, as you can imagine, with the fires we had in Santa 
Rosa. They do not know what caused the fire, but they have 
their suspicions, and whether or not that can prevent 
catastrophic wildfire or help prevent catastrophic wildfire in 
the future.
    We have a lot of work to do. We appreciate your coming out 
here today.
    We certainly appreciate Sheri's hard work for the United 
States Government. I hope you enjoy your retirement in sunny 
California. You will love it. [Laughter.]
    Ms. Elliot. You visited one of my favorite spots, the San 
Francisco Bay area.
    Mr. Calvert. It is a wonderful place.
    Mr. Tooke. Thank you for recognizing her, by the way.
    Mr. Calvert. She is a great person. We are going to miss 
her.
    So with that, there are no other comments. We are 
adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                      Thursday, November 30, 2017.

           SUPPLEMENTAL OVERSIGHT--DEPARTMENT OF THE INTERIOR

                                WITNESS

DAVID BERNHARDT, DEPUTY SECRETARY OF THE INTERIOR

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The committee will come to order.
    This morning, I would like to welcome to the subcommittee 
the Deputy Secretary of the Interior, David Bernhardt. Our 
hearing today will address the Department of the Interior's 
fiscal year 2018 hurricane recovery supplemental request 
submitted to the committee by OMB on November 17th. I should 
say hurricane and fire recovery supplemental request submitted 
to the committee by OMB on November 17th, just an ad lib on 
that one.
    As you know, Mr. Secretary, oversight is a critical 
priority of this subcommittee. As the Appropriations Committee 
prepares the next supplemental for consideration by the House, 
it is important that we closely examine the various Department 
of the Interior priorities included in the administration's 
request.
    We look forward to hearing in greater detail from you 
today, based upon both storm damage assessments conducted to 
date, as well as from your recent firsthand observations on the 
ground, about specific hurricane-related needs in the States 
and territories affected by Hurricanes Harvey, Irma, and Maria. 
We understand that storm damage assessments, particularly in 
Puerto Rico and the U.S. Virgin Islands, are ongoing.
    We also hope you can shed some light on when we might 
expect estimates on any remaining Interior-related needs that 
may be addressed in a future proposal.
    According to information we have received to date, the Fish 
and Wildlife Service sustained major damage at 41 agency sites, 
mostly national wildlife refuges. The National Park Service 
incurred damage at 21 national parks, preserves, and national 
monuments. The United States Geological Survey sustained damage 
to over 200 pieces of equipment, including streamgages and 
coral-reef monitoring and seismic-monitoring equipment.
    The challenges growing out of these hurricane events 
include cleanup and debris removal; significant infrastructure 
repairs, including visitor centers, ranger stations, wastewater 
treatment facilities, employee housing, roads, bridges, and 
campgrounds; and environmental assessment work needed to inform 
recovery and rebuilding efforts.
    Our committee stands ready to assist the department in 
responding to these needs.
    Overall, the President's fiscal year 2018 supplemental 
budget request seeks a total of $469 million for the 
Department, including $210.6 million for the Fish and Wildlife 
Service, $225.1 million for the National Park Service, and 
$32.9 million for the United States Geological Survey.
    Our committee is examining the administration's request 
account-by-account, line-by-line. Your testimony today will 
help guide this subcommittee's response.
    In a subcommittee briefing prior to Thanksgiving, U.S. 
Virgin Islands Governor Kenneth Mapp brought to our attention 
many of the challenges facing the Virgin Islands. He painted a 
portrait of a largely damaged infrastructure but of a resilient 
population of Americans eager to rebuild in the aftermath of 
these historic hurricanes.
    Among other priorities, Governor Mapp emphasized the 
importance of the long-term recovery of Caneel Bay on St. John, 
specifically the need to secure a long-term extension of an 
agreement between the operator of the Caneel Bay Resort and the 
National Park Service. He pointed to this as a critical piece 
to rebuilding the economy and putting 500 people back to work 
in the Virgin Islands.
    The subcommittee would benefit from your perspective on the 
status of these ongoing negotiations.
    In closing, this subcommittee couldn't do its work without 
the talented people sitting behind you.
    Thanks to each of you for all that you do.
    With that, I am happy to yield to the gentlelady from 
Minnesota, Ms. McCollum, for any remarks she would like to 
make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you. And good morning, Mr. Chair.
    Deputy Secretary Bernhardt, I am glad that you are here 
joining all of us today. I welcome you for your first public 
hearing before the committee.
    And as the chairman pointed out, we will be delving into 
and discussing the details of the administration's most recent 
request for a supplemental. The request is to identify needs 
caused by the historic widespread destruction of recent 
hurricanes, and also wildland fires that our country has 
experienced this year.
    Unfortunately, the Trump administration's latest 
supplemental request falls short in many areas, including 
education and housing. I am taken aback that the Trump 
administration appears to want to make our fellow citizens in 
Puerto Rico and the Virgin Islands wait even longer to rebuild 
their homes and their lives. Specifically to your department, I 
am disappointed that no funding was requested for the Office of 
Insular Affairs, which plays a unique role in the Federal 
Government's coordination of Federal responsibilities for the 
territories. The very lives and livelihoods of our fellow 
citizens are going to depend upon the Office of Insular Affairs 
getting its job done efficiently, effectively, and right. I 
believe that the office also has special technical expertise, 
which could be a significant asset in the recovery of the U.S. 
Virgin Islands.
    The supplemental request for the Department of the Interior 
is $469 million. These funds are for equipment replacement, 
removing debris and hazardous materials, and repairing and 
renovating the national parks and national wildlife refuges.
    The hurricanes caused profound damage to the natural 
landscapes and have compounded damages that have occurred in 
past storm events, especially at El Yunque rainforest, which is 
a national treasure that was decimated. The destruction was 
catastrophic. This forest will have years, decades, before it 
recovers from the harm to its ecosystem.
    That is also going to have a direct impact on the economy, 
because the economy of that rainforest really is interdependent 
with the lives and livelihoods of the people of Puerto Rico. I 
am also very concerned about what the department is doing for 
the threatened species, especially the Puerto Rican parrot. We 
heard a little bit about that in the U.S. Forest Service budget 
hearing yesterday, about what they were going to do to try to 
stabilize that population.
    So I look forward to hearing from you today, but I have 
more questions. I am anxious to hear about your request and 
what future plans you might have for the Department of the 
Interior to accomplish the recovery and restoration.
    Mr. Chair, I want to thank you for the time for opening 
comments. And I also have some information, along with Ms. 
Pingree, from the delegate from the Virgin Islands. We will 
either be asking our questions or submitting those questions 
for the record.
    Thank you.
    Mr. Calvert. Thank you.
    With that, Mr. Secretary, you may proceed with your opening 
statement.

             Opening Remarks of Deputy Secretary Bernhardt

    Mr. Bernhardt. Good morning, Mr. Chairman, ranking member, 
and members of the committee. Thank you for inviting me to 
appear before you today to discuss the administration's request 
for the Department of the Interior. This is my first appearance 
before you since I was confirmed, and I look forward to working 
with each of you during my tenure.
    Before I begin discussing our request, I think I should 
recognize that all of our thoughts, prayers, and hearts are 
with the victims of Hurricanes Harvey, Irma, and Maria. The 
Assistant Secretary of Insular Affairs, Doug Domenech, who is 
with me today, and I have each traveled to hurricane-impacted 
zones and seen many of the consequences and devastation of the 
storms. To be honest, the personal and private sector loss is 
jaw-droppingly tragic.
    I would be remiss if I did not tell you what a privilege it 
is to work with the individuals who volunteered to deploy as 
part of incident management teams. Interior deployed about 560 
volunteers on 31 FEMA mission assignments as part of the 
immediate response. And, obviously, we have folks working on 
the recovery as we speak.
    Many of our employees were hurricane victims themselves, 
and they helped to serve not only the immediate needs of 
Interior's mission but, more importantly, the broader needs of 
their community.
    We are moving quickly with the help of volunteers and 
partners to reopen our facilities. We recognize these areas 
provide important economic support and, in many cases, are 
integral to the neighboring communities. Last week, the 
Secretary announced the reopening of portions of San Juan 
National Historic Site and the Virgin Islands National Park, as 
well as Christiansted National Historic Site and Buck Island 
Reef National Monument on St. Croix.
    As of today, all national wildlife refuges and national 
park areas in the continental U.S. are either open fully or 
with limited hours and partial closures. All refuges in the 
Caribbean islands are starting to potentially reopen for public 
use. Portions of San Juan National Historic Site remain closed, 
but key areas such as El Morro Castle are now open.
    As we developed this request, we were mindful that the 
resources of the United States are finite. My own consideration 
was whether the funds were truly needed or whether they might 
be better spent directly helping the people who had been 
impacted.
    That said, the facilities we administer must be addressed 
to be made safe and functional. Equally, the tools the public 
rely on us for, such as data from USGS streamgages, must be 
made functional and accurate.
    Our request, as the chairman said, amounts to $468.7 
million, which I think if you round up is $469 million, and 
reflects the multitude of damages. These hurricanes impacted 
roughly 150 managed facilities of Interior's, and those are 
most easily highlighted on the charts that I think you have in 
your packet. I just wanted to highlight them very quickly.
    The first slide is just simply where would the money go. 
That should be relatively self-explanatory, but I think it is 
helpful in seeing the relative scope of the impacts.
    I have extras, if you need one.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The second slide is really a slide of who in the Department 
of the Interior would the money go to. You can see that 45 
percent would go to the Fish and Wildlife Service, 48 percent 
to the National Park Service, and 7 percent to the U.S. 
Geological Survey.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    The next slide, and I do not know if this one will show up 
there very well, but I wanted you to see this chart, even 
though it is very busy, it is an indication of what happens 
with USGS in an event like this. The black dots are very good. 
The dots that are just a triangle with red are those where our 
data might be not too far off, but we still have to do modeling 
to be comfortable with it. Those dots that are a black dot with 
a red triangle around it are those where we are basically 
guessing, and this is because this storm event was so 
significant it has actually changed the landforms of these 
streams and rivers. Not only do the streamgages need to be 
replaced but data needs to be collected to ensure that the 
calculations that USGS makes are accurate.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    And it also shows kind of the scope of the hidden role that 
Interior often has within agencies.
    I know I am running close to my 5 minutes probably, so 
let's flip to the next slide quickly.
    I personally was at this site in the Everglades.
    I guess my time is probably up.
    The Everglades slide, this is a great example. On the left 
is the visitors center that has basically been condemned as a 
result of the effects from the storm. On the right is a 
maintenance shed that obviously has been devastated, as you can 
see.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
       
    The next slide is a really interesting slide. This is 
employee housing on the Virgin Islands. When you look at the 
slide, it looks like a disaster, which it obviously is. But 
what happened here is the door failed on this house. Water came 
in the door and literally blew the roof and the wall off the 
building. It is just unbelievable.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    The next two slides we can scroll through quickly. They are 
typically what you would expect at a refuge, in terms of things 
that need to be restored for both safety and access.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   
    And that really is what makes up our primary point of the 
request.
    Let me say specifically in regard to the Insular Affairs 
component and the U.S. Virgin Islands, I have spent a lot of 
time thinking about the role Interior plays with Insular 
Affairs. We are very cognizant of it, and I want to be very 
candid with you. I think the role, the unique capability--I 
mean, you used the words specific, technical expertise. I 
personally think that unique capability is a very enhanced 
understanding of how the government in the USVI works, an 
understanding of both the challenges the government will face 
there, and I really believe that Insular Affairs' specific 
technical skill for these particular events is their expertise 
and serving almost as a liaison between the recovery people and 
the government, because both here and in Puerto Rico, I think 
the scale of what we are dealing with is very different, given 
the competency of other governmental entities and what we are 
likely to bear.
    We have to recognize that this is going to have a 
tremendous effect on the revenue streams for these governments 
as well as in the private sector, and these are very, very big 
issues. I think that is why the administration is suggesting 
they want to work with Congress on specific requests, because 
of the unique nature.
    But I think for Interior itself, our technical skill is 
really most specifically devoted to helping educate the other 
Federal agencies as to the way USVI governmental structures 
work, and also educating the government of USVI on that, and 
also helping us ensure that surprising missteps are not simply 
made.
    I just put that forward. I am happy to answer any of your 
questions, and I really appreciate your time. Questions?
    [The statement of David Bernhardt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
                 DAMAGE ASSESSMENTS

    Mr. Calvert. Thank you, Mr. Secretary.
    The committee has been working closely with your department 
and, as I mentioned earlier, recently met with the Governor of 
the Virgin Islands. It is our understanding that damage 
assessments, particularly in the Caribbean Basin, are ongoing.
    My first question is really three questions, so bear with 
me.
    First, broadly speaking, have damage assessments been 
completed in Texas, Florida, and other States? Do the 
Department of the Interior-funding requirements contained in 
OMB's supplemental submission address all of the post-hurricane 
needs in Texas, Florida, and other States on the mainland?
    Secondly, to what extent does the supplemental request 
address Interior-related needs in Puerto Rico and the Virgin 
Islands? What damage assessments have been completed and what 
remain outstanding at this time?
    And lastly, can you provide a timeline of when we will 
likely know the full scope of the damage in Puerto Rico and the 
Virgin Islands? At this stage, are you able to quantify, in 
general terms, what additional funding needs are likely to be 
requested for the department in a future supplemental funding 
bill?
    Did you get all that?
    Mr. Bernhardt. I hope so. [Laughter.]
    All right, let me take my shot.
    First, I do not know if absolutely all assessments are 
done, because some assessments are continuing. But in general, 
what I have found so far in this process is, as assessments 
come in, our estimates tend to go down, which means we probably 
took a very conservative approach right at the beginning.
    Particularly for Texas and Florida, I think we are likely 
to see a meaningful change, and certainly not a meaningful 
change upward.
    Mr. Calvert. That is just for the Department of the 
Interior.
    Mr. Bernhardt. Absolutely. No, no, believe me, I am limited 
to the Department of the Interior, in terms of my knowledge 
base.
    For Puerto Rico and the Virgin Islands, for our facilities, 
I feel pretty good about the estimates, frankly. And I 
personally visited a lot of those facilities.
    Streamgaging, there are probably some questions. But in 
terms of our structural effects, there are some uncertainties 
like some water treatment facilities and other things that may 
be, as we get in and look at the electronics and the impact of 
salt-water intrusion, those numbers could go up, frankly. But I 
feel relatively confident about them.
    When will all our assessments be done? I think that is a 
little bit of a work in progress. We are trying to get them 
done as quickly as possible because we are trying to reopen 
facilities to the extent we have not.
    I do not think we are likely to be surprised by big 
structural damage or other things like that. What could change 
is our estimates of whether or not--some of these are very 
remote locations, and whether we are right on our estimates of 
what it would take to actually fix them.
    So that is my best shot at your questions.
    Mr. Calvert. Thank you. If we need any additional 
information, we will get in touch with you.
    With that, Ms. McCollum.
    Ms. McCollum. Thank you. There are lots of questions, but I 
am going to focus on three things.

                               RESILIENCY

    As we are moving forward, and as you are putting budgets 
together, looking back on what Congresses have done in the past 
for our fellow citizens, during Hurricane Sandy, Congress 
appropriated $360 million in disaster relief appropriations, 
and there were resiliency projects in there. They found that to 
be a very cost-effective investment.
    So one of the questions I have is, are you going to have or 
does this request include resiliency projects?

                         HISTORIC PRESERVATION

    Another thing that we have done both after Hurricanes Sandy 
and Katrina, Congress provided $50 million for historic 
preservation. This goes back to the livelihoods and lives, and 
the importance of these territories to the United States.
    So do we have any Historic Preservation Fund money in the 
request?

                         MICCOSUKEE K-12 SCHOOL

    The next question is a little more specific: you said you 
are pulling things together yet when it comes to education. 
Hurricane Maria impacted the Miccosukee tribe down in Florida. 
Could you tell the committee if the K-12 school building, which 
I have been in, what kind of shape it is in? Do they need any 
funding? Have you done what needs to be done for the tribe in 
that educational setting?

                         VIRGIN ISLANDS SCHOOL

    On the Virgin Islands, 60 percent of St. John Island is a 
national park. There was a lot of damage inflicted to the 
school there, and it is going to require new construction. You 
are also going to be doing some construction, some roadwork, 
and the rest. One of the things that we have been working on 
are ways to collaborate and create win-wins. We are wondering 
if you are talking to the Department of Education about what 
should be happening with the construction of a new school.
    I think there is an opportunity to have a school of 
excellence. We talked about it a little bit before when the 
Deputy Secretary was here, the opportunity for getting this 
right for the islands, for the students, for the future 
education of our fellow citizens, and also for the best use of 
taxpayer dollars.
    So if you could, just comment briefly on where you might be 
on those issues or if they are going to be in future 
supplementals?
    Mr. Bernhardt. Sure. I think we can hit most of those.

                               RESILIENCY

    First, on resiliency, we have spent a lot of time thinking 
about ensuring we harden our facilities, that to the extent 
cables can be buried, they are buried, so we do not have to 
replace polls going forward, ensuring we utilize technologies 
to make sure--I mean, invariably, there will be a hurricane 
here again, and make sure we are not continually asking you for 
those types of monies.

                         HISTORIC PRESERVATION

    In regard to historic preservation, it is my understanding 
that the request is entirely for Section 106 monies, if you 
will. It is not a request for brick and mortar costs for 
private residences or private historic facilities. That is the 
way, I believe, our request is structured.
    Ms. McCollum. So my question was, is that the end, or for 
future supplementals, even if you do not have a dollar amount, 
are you continuing the discussion?
    Mr. Bernhardt. I do not anticipate we would be seeking a 
supplemental requesting money for private residences and those 
types of things, as it relates to historic properties. I would 
not expect Interior to do that.

                         MICCOSUKEE K-12 SCHOOL

    Regarding education, I am not specifically aware of the 
Miccosukee School, but I am happy to get back to you on that 
this afternoon.

                         VIRGIN ISLANDS SCHOOL

    Regarding the VI school, I am somewhat familiar with that. 
I think there are some discussions and dialogues that need to 
occur with the Governor as well, in terms of on specific pieces 
of property and other type things regarding location. We are 
happy to talk to the Department of Education about it, but I do 
not think that is functionally the immediate challenge. I think 
it is more perspectives on location and property.
    Ms. McCollum. Thank you, Mr. Chair. I would just say that 
getting a school up and running, and I know you did not mean it 
this way, so I am clarifying it for the record, is something of 
immediate need.
    Mr. Bernhardt. I completely agree with that.
    Ms. McCollum. I figured you did. I just wanted to be clear.
    Mr. Bernhardt. There is a role the Federal Government has, 
and there is a role other governmental entities have as well.
    Mr. Calvert. Mr. Simpson.
    Mr. Simpson. Thank you.

                        FEMA MISSION VOLUNTEERS

    You mentioned during your opening statement, I cannot 
remember, roughly 800 volunteers from the Department of the 
Interior. By volunteers, do you mean Department of the Interior 
employees that volunteered to go down there?
    Mr. Bernhardt. That is exactly what I mean, sir. Obviously, 
there have been volunteer efforts of folks that have just 
helped, but what I was specifically referring to there is the 
560 people who have volunteered to go into these areas.
    Look, no power, water, it is challenging conditions. They 
are up for it, and they are motivated, and they are doing an 
incredible job. We have folks from Grand Teton. We brought in 
smoke jumpers to actually clear some of the roads. They really 
made a huge difference, but they did not have to step up.
    Mr. Simpson. And we thank them for that, and, if you would, 
thank them on behalf of this committee----
    Mr. Bernhardt. Absolutely.
    Mr. Simpson [continuing]. For the effort and the work that 
they are doing down there.

                           FEMA REIMBURSEMENT

    You mentioned 31 FEMA missions that you have participated 
in. That means FEMA has paid for these?
    Mr. Bernhardt. Well, I think the way it works, technically, 
is FEMA makes an assignment, gives it to us, and then we carry 
it out. As part of that, I think it is reimbursed through FEMA 
as a, I do not want to say an entitlement, but there is some 
sort of reimbursement agreement.
    Mr. Simpson. What has this done, not the FEMA part, but 
what has happened to Interior's budget because of costs that 
are not reimbursed by FEMA? You said that there were volunteers 
from Teton National Park and other places. Is there work there 
that is not being done because we have had to redirect 
resources to this? And what has been the impact on the 
Department of the Interior overall?
    Mr. Bernhardt. For our own facilities, part of that is some 
of our request. The way FEMA works is FEMA does kind of the 
public stuff. For our own facilities, we are expected to deal 
with those and then come to you, and that is what we have done. 
There have been some really interesting efforts.
    For example, it turns out that Dry Tortugas has a boat, the 
Jefferson. We have actually used that to get supplies to Puerto 
Rico and the Virgin Islands. There has been a lot of our own 
activity that is not part of those 31 missions, and that is 
stuff that we ask you for.

                          SUPPLEMENTAL REQUEST

    Mr. Calvert. Will this supplemental----
    Mr. Bernhardt. Make us whole.
    Mr. Simpson. Yes, will it make you whole? So that the 
activities that we expect the Department of the Interior to do, 
can still be fulfilled?
    Mr. Bernhardt. That is absolutely my goal. This is not at 
all to take away from those. What really happened, candidly, is 
a fire crew in Grand Teton--right now, there is snow. So they 
are getting to spend some time in the Virgin Islands doing 
really hard work in a hot, very different temperate 
environment, but that is what they were willing to do.
    Mr. Simpson. Thank you.
    Mr. Calvert. Ms. Pingree.
    Ms. Pingree. Thank you.
    Thanks very much for being here today.

                              TERRITORIES

    Thank you, Mr. Chair and ranking member, for spending so 
much time on this. I think getting to know better from the 
delegate and the Governor recently about some of the issues 
that they are facing was very helpful to us.
    I think dealing with matters of the territory, as I am sure 
you know in your new position, seems so complicated and 
confusing. Each one is treated differently, and there is a 
whole variety of things. I am just going to ask you a general 
question, because some of these things I am still trying to 
figure out.
    It is my understanding, and some of this I got from 
Representative Plaskett's questions that she suggested to the 
ranking member and I, that some things, obviously, are treated 
differently for Puerto Rico and the Virgin Islands. In the 
administration's request, there is a waiver of the Stafford Act 
in order to rebuild infrastructure with more resiliency, and 
you have already talked a little bit about resiliency.
    The request specifically states, for Puerto Rico, in 
particular, the Administration seeks as part of this request 
authority to provide public assistance under the Stafford Act 
without limitation of predisaster condition and causation.
    Now that does not apply to the Virgin Islands. I know this 
is more complex, and I completely understand, because some 
things are FEMA, and some things are Homeland Security. But 
obviously, changes are attempting to be made. In your role as 
kind of the only agency that, in a sense, cares about the 
comprehensive picture of the territories, can you explain those 
differences to me and maybe talk a little bit more in depth 
about some of the things you alluded to, and the challenges.
    There is specific expertise that other Federal agencies or 
the Department of the Interior have that just are not 
available, particularly in the Virgin Islands, to the existing 
government. People are dealing with many of their own issues. 
There was already a lot of debt and difficulty going on there.
    So I would like to get a little more in-depth picture of 
how you see both how the territories are being treated 
differently and then also how you see some of that funding 
applying.
    Mr. Bernhardt. The first thing I would say is I do not 
think that specific provision is part of the Department of the 
Interior's specific request. So I cannot speak specifically to 
the distinction. But I can tell you this from perspective. It 
would not surprise me that there might be a perspective that 
that authority was thought through for Puerto Rico and not 
necessarily thought through on the Virgin Islands. The 
administration, frankly, may be very supportive of that 
modification, if that is what you were asking.
    The difference is really one of magnitude, I think. There 
are 3.4 million people in Puerto Rico, and it is a very 
significant circumstance. There are approximately 100,000 
people in the U.S. Virgin Islands. It is also a very 
significant circumstance.
    Puerto Rico's financial situation is much more visible. 
Congress has dealt with it. But you need to understand that 
USVI, although it is not in that particular state, is very 
fragile itself.
    In both of these places, from my perspective, this is an 
incredibly serious challenge in that, just for a minute think 
of State revenues dropping very, very significantly; tax 
revenue not coming in because there is not an economic factor; 
and people not having the ability to get paid from their jobs. 
This is a very serious event, and it is going to require a lot 
of work between the administration and your body in helping it. 
I can tell you emphatically the administration is very, very 
concerned about this.
    Look, I have spent time in these places. In my testimony, I 
say the personal toll is jaw-dropping, and it is. Just the 
amount of debris and trash is jaw-dropping. But the impact to 
people's lives is very real, and this is going to require both 
the executive branch and the Congress to treat this in a way 
that is somewhat different than we normally treat other events. 
So that is just my unscripted answer to your general question.
    Ms. Pingree. Well, I appreciate your unscripted answer and 
I completely concur. I think it is a unique situation.

                          FEMA MATCHING GRANTS

    I would suggest that while I know it is hard to get all the 
estimates together, I noticed one thing is that the assistance 
to the territories program within the department's budget, it 
was originally cut. It has been restored, I think, in the 
House. But, that is one place where it seems to me we could be 
looking at funding to help with some of these things that are 
not just about that.
    I would ask you about that. I would also say that you are 
absolutely right, we have to look at this a little bit 
differently, or I would suggest that I think you are right. 
Congress needs to play a role in it, but partly Congress can 
only play a role if it is really clear from the department 
where the needs are.
    While, again, I would say some of these things end up in 
another budget and other places, you are the only department 
that cares about the long-term future and how to put all those 
pieces together, so I would think that your oversight on where 
the funding comes from and making sure it is all there is 
really critically important.
    Mr. Bernhardt. I think a lot of people care, so I do not 
want to minimize that. I think everybody's heart goes out to 
these folks.
    Historically, one of the areas where we have seen your 
committee deal with some of the Insular Affairs impacts are on 
the matching side of the FEMA-type grants. That is not in our 
request. That is something to have a discussion about. It may 
not even be something to have a discussion about in your 
committee. It may be somewhere else. I do not know that, and I 
am not trying to impose that.
    I really believe, and I want you to know, I have spent a 
lot of time understanding capacity and thinking about this. The 
Insular Affairs Office is a relatively small office, and it has 
tremendous expertise in knowing and having relationships in 
those communities. I want to make sure if you put money in 
those programs, we are fully capable of administering them. I 
really believe their technical expertise is in helping the 
Government of the Virgin Islands and the Federal Government 
understand each other to not make missteps, for what it is 
worth.
    Ms. Pingree. Thank you. Thanks for your work.
    Mr. Calvert. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.
    Good morning, Mr. Deputy Secretary.

                          IMPACTED SITE VISITS

    In your written testimony, I believe you said you had the 
opportunity to see firsthand the problems in the U.S. Virgin 
Islands. This is not a trick question. Had you been there prior 
to this event, so you could appreciate how much was devastated?
    Mr. Bernhardt. Number one, I had never gone to the U.S. 
Virgin Islands before I went, or I think even to the Florida 
Everglades. But I will tell you this, the devastation is 
obvious and apparent.
    When you fly into these islands, there are a multitude of 
houses, and I mean like every other house has a brand-new blue 
tarp. When you drive down the road, walls are gone.
    Mr. Joyce. Right.
    Mr. Bernhardt. It does not take a rocket scientist to 
realize it got hammered.

                               CANEEL BAY

    Mr. Joyce. I am wondering because, having had the 
opportunity to be there before and seeing pictures of it now, 
obviously, there is utter devastation there. You can appreciate 
that there is private enterprise also opening on the island on 
St. John. We have the National Park Service also appearing on 
the island.
    Also, on the island, there is Caneel Bay. Did you have an 
opportunity to visit there?
    Mr. Bernhardt. I absolutely did.
    Mr. Joyce. They have 500 employees, and they bring 15,000 
guests to St. John's every year. I was over there a year ago in 
November and had a chance to look at it. It accounts for 
approximately $65 million in annual spending on the island.
    They operate under a retained use estate with the National 
Park Service that expires in September 2023. In the last 7 
years, no lease has been agreed upon, and the lease 
negotiations have crawled along. Obviously, with the 
destruction that has taken place there, and for them to put 
money in and continue to not only rehab but to continue to 
exist, they are asking for a 60-year lease.
    Do you find those efforts to be troublesome for some reason 
or a problem?
    Mr. Bernhardt. As a matter of policy? No. I will tell you 
this. Number one, I have been to Caneel Bay. I specifically 
went there. I think if you have been there before, you would be 
troubled if you returned. I do not think it would look at all 
like you remember.
    Mr. Joyce. The pictures I saw made it almost look like it 
was set up as a base, since they had a working package plan. 
They had helicopters that were landing----
    Mr. Bernhardt. I am sure they played a significant role.
    But here is what I would say. Number one, the worst thing 
we could do is end up having the park service have that 
facility and not have anyone operating it.
    Mr. Joyce. Right.
    Mr. Bernhardt. So that is the worst-case scenario.
    In terms of the 60 years, I have to say this, honestly, we 
have certain authorities for leasing, et cetera, that have 
certain time horizons. Those time horizons might not line up 
with the investment calculations anyone has to make to make 
what will be a very large capital investment. I assume, and Mr. 
Calvert and others would know this better than me, I assume 
they are looking to achieve a rate of return on a time horizon 
that makes sense for them.
    The other thing I think would be worrisome for them, and 
probably is one of the reasons they would want to spend time 
visiting with you, is the timing and uncertainty of anything we 
do. It could take a long time, in terms of finalizing an 
agreement and getting it done.
    I think one thing we need to think about is, number one--we 
do not want it back in a meaningful way. Number two, it is in 
all of our interests to get this up and running quickly so the 
quicker there is certainty, the better. Number three, we are 
not investors, so we do not know what the magical time horizon 
is, but I am sure that is something we are happy to debate. And 
to the extent we have authority, we are happy to work within 
that authority. And to the extent we do not have the authority, 
then it is kind of your job.
    Mr. Joyce. I believe in public-private partnerships. The 
fact that somebody is willing to invest private money to fix up 
our facilities, they obviously need their rate of return so 
they can give money back to their investors, because this is 
not manna. It is not dropping from the heavens for us.
    Mr. Bernhardt. I completely agree with you, sir.
    Mr. Joyce. I believe the current terms are 40 years, so 
they are asking you--and if you cannot do it, if it needs to be 
us, then I would appreciate knowing where we have to go to 
allow this new lease.
    Mr. Bernhardt. I do not want to try to figure out their 
positioning for us, but I think there is a window of time 
element. And different agreements have different conditions and 
expectations, and their use agreement may require your help, if 
that is the model. And that is just the way it is.
    Mr. Joyce. Is it fair to say that you are amenable to a 
discussion?
    Mr. Bernhardt. Beyond amenable.

                           FEMA REIMBURSEMENT

    Mr. Joyce. Great. You asked for money, and I noticed that, 
following up on Chairman Simpson's question, some of this work 
you say you are directed by FEMA to do, so you do that work and 
you are reimbursed.
    How long is the delay, or is there any delay, in the 
reimbursement between the work you are performing, the payments 
you are making and your receiving this money? Is it a month? Is 
it 2 months? Is it immediate?
    Mr. Bernhardt. Well, first off, those events are not 
covered in our supplemental----
    Mr. Joyce. I get it.
    Mr. Bernhardt [continuing]. In terms of our FEMA response 
efforts.
    Mr. Joyce. But you are still----
    Mr. Bernhardt. I do not think the delay is so significant 
the agency has come to me and said please help us with this. I 
think it is almost like a--I do not want to say an entitlement, 
but I think that part of the system works okay.

                              CONTRACTING

    Mr. Joyce. Do you contract with private partners or private 
contractors, then, to help do some of this repair work and 
cleanup work? Or do you rely all in-house? Because, obviously, 
there is devastation to Cinnamon Bay and other properties. I 
noticed the supervisor's buildings----
    Mr. Bernhardt. There are absolutely, in terms of the 
recovery effort, there will undoubtedly be contracting for a 
good amount of that. In terms of the response efforts, I do not 
believe that Interior, in any of their individual responses, 
have used contractors, to date. I do not think we normally 
would. But I would have to check and get back to you on that 
with absolute certainty.
    Mr. Joyce. No one can predict when these things will occur, 
obviously. But when we are taking these efforts in restoration, 
are you doing anything to be preventative for, God forbid, 
another event coming next year or 5 years from now, as we are 
building back up?
    Mr. Bernhardt. Well, I think that is a key factor in how we 
look at all of these upgrades. We have to look at them and say, 
as we are making this new investment, how do we make them 
hardened, resilient. Should we have things you can pack up and 
move? I mean, these are the questions we need to answer as we 
develop new structures. Should our communications lines and our 
electric lines be buried, to the extent they can?
    Those are the things we absolutely will incorporate in our 
thinking about new facilities. Some of these repairs are just 
simply the bathroom of a place, of a broader building, was 
impacted. So in those, we are not looking at a major re-
hardening, if you will.
    Mr. Joyce. The one photograph you show here, I toured that 
facility. That looks like a lot of work for the Department of 
the Interior to be doing. I would think private contractors 
would be necessary to come in to fix this.
    Mr. Bernhardt. Oh, absolutely. Yes, those absolutely will 
be--I mean, there will be significant private contracting 
involved in the----
    Mr. Joyce. For lack of a better term, you are going to farm 
that work out. You are not using Department of the Interior 
employees to do that work. You are going to have to farm that 
work out.
    Mr. Bernhardt. There are certain things that Interior 
employees may very well do, but a lot of it, a ton of it, will 
be contracted out.
    Mr. Joyce. Okay.
    Mr. Bernhardt. I am sorry if I misrepresented it----
    Mr. Joyce. No, no. I am trying to be helpful. These were 
not trick questions. You can only do so much in-house, and some 
of the work, you have to farm out. You have a lot of work that 
needs to be done, so I appreciate what you are doing.
    Thank you, sir.
    Mr. Calvert. I thank the gentleman.

                               CANEEL BAY

    And I know the Resources Committee is looking into this 
lease also. From my own experience, I would say, to develop 
something like that on an island, where you may have a disaster 
again in 2 years or 20 years, is a significant risk. You do not 
want to lose a tenant and end up with a vacant piece of 
property either, whoever you lease it to.
    But I do not think a 60-year lease, from my perspective, is 
unreasonable. Obviously, the Governor feels that way also.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Chairman.

                          GREEN INFRASTRUCTURE

    Thanks for being with us. I actually want to hop on where 
Mr. Joyce ended and focus on some of the resiliency questions 
that Ms. Pingree had.
    I am particularly interested in green infrastructure that 
might actually mitigate some of the damage. We heard from the 
Fish and Wildlife Service that green infrastructure projects on 
some of the National Wildlife Refuges actually helped protect 
some of the inland areas and reduce some of the damage. The 
McFaddin National Wildlife Refuge has a dune system that 
protected the Port Arthur refinery, and that mitigated some of 
the damage to the Port of Beaumont, which is the Nation's 
busiest military port.
    We see this in my neck of the woods, too, that natural 
infrastructure might actually be a good buffer to some of the 
damage caused by natural disasters.
    To what extent is that part of this supplemental request? 
And beyond that, I am curious if you have thoughts about what 
we could do to incent more of that green infrastructure 
development to promote not just conservation but also to try to 
mitigate some of the damage when these events occur?
    Mr. Bernhardt. I appreciate that question. Let me give you 
an answer that is probably not very politic, and that is this. 
When I received our request for this budget, I went through 
them line by line, and here are the factors I used.
    Number one, we need to take care of what we have 
responsibly. But number two, this supplemental, I assume, is a 
finite amount of money. I know people do not have homes, jobs. 
If we are taking a dollar out of somebody else's pocket, I 
wanted to make sure I was comfortable with it. This request 
represents the stuff I believe we absolutely need to do.
    I think there is a lot of legitimate debate that we can 
talk about what our programs should be and should we use land 
morphology and other things for hardening facilities. I do not 
have any qualms about that. I am just not entirely sure that is 
a supplemental, emergency-type discussion as much as a 
discussion with all of you about the benefit of having these 
programs on a regular basis and making them part of our 
ongoing, regular program.
    Mr. Kilmer. Do you have thoughts about how we would do that 
as part of an ongoing, regular program?
    Mr. Bernhardt. I would say I am not an expert, but we would 
devise a program, pick some test sites, and do it. And I know 
it has been done in other hurricanes.
    Ms. McCollum. If the gentleman would yield for a minute?
    Mr. Kilmer. Yes. Go for it.
    Ms. McCollum. That is what my question was about Sandy, 
some of the exact things that Mr. Kilmer was asking. This 
Congress said it was the right thing to do, to mitigate future 
problems.
    So I think Congress has shown that we do see a value to 
taxpayers in doing that. I thank the gentleman for yielding.

                          HABITAT RESTORATION

    Mr. Kilmer. The other question I wanted to ask is how much 
funding is set aside within the supplemental for habitat 
restoration. Obviously, there was a lot of damage to some of 
the National Wildlife Refuges from the storms. I was also 
curious whether that was covered within the areas damaged by 
the wildfires out West.
    Mr. Bernhardt. I will have to get you a specific number. I 
think that most of these numbers are for facilities, debris 
removal, equipment.
    [The information follows:]

                          Habitat Restoration

    The request does not include funding for habitat restoration.

    I would say, as I was walking through the Everglades, I 
would say that the truth of the matter is that the environment 
itself held up pretty well. Our facilities, not so much. So 
that is the truth of the matter.

                         MICCOSUKEE K-12 SCHOOL

    I also want to respond back to the Miccosukee Indian 
school. I have been informed that it was not damaged during the 
hurricane, as a matter of fact. The electricity was off for a 
little while, though.
    Ms. McCollum. Thank you.
    Mr. Kilmer. Thanks, Chairman. I yield back.

                               RESILIENCY

    Mr. Calvert. I am going to go to Mr. Amodei. But first, 
regarding resiliency, what is going on in Puerto Rico, for 
instance, even though people would like to see a system built 
to a Category 5 hurricane, that may not be practical. It may 
not be practical, what the Virgin Islands are proposing.
    But one thing that can be done, as someone who has built 
things, is when you are building things like foundations and 
footings, drainage, that is one thing, where if you lose the 
building but the foundation and the footings are still there, 
you can rebuild on that footprint.
    That saves a tremendous amount of money. That does not 
really cost that much more money to do. That is something that 
ought to be analyzed as you go into these things.
    I just bring that up as a point.
    Mr. Amodei.
    Mr. Amodei. Thanks, Mr. Chairman.

                         HISTORIC PRESERVATION

    Morning, David. You have talked about money for expedited 
permitting from SHPOs, state historic preservation officers. So 
I am assuming that we do not need money for expedited 
permitting from any agencies in the Department of the Interior. 
Or is that an incorrect assumption?
    Mr. Bernhardt. The Section 106 money, I think that you are 
correct in that we believe we have what we need. I have to make 
sure if any of that would actually be retained by the Park 
Service, and it may be.
    Mr. Amodei. Okay. My only potential concern is if we are 
plussing up permitting activities within our own agency to 
allow a different part of our own agency to do it, and I am not 
saying that is a bad thing or a good thing, I would just say 
that that might be something that needs to be pretty fully 
fleshed out so that we are not saying we did that. So if that 
is an issue later on, then get back with me.
    State SHPOs are good things. But when we talk about what 
things cost, and SHPO comes back and says, hey, wrong kind of 
siding or wrong kind of light fixtures or whatever, that could 
have an impact on what this costs, right?
    Mr. Bernhardt. It certainly could have an impact on what 
those individual owners are doing, et cetera. Absolutely.
    Mr. Amodei. Okay. So I guess we need a footnote in there 
that just says, hey, if the SHPOs beat us up in these seven 
States, we will come back to you. I assume that would be the 
process, right?
    Mr. Bernhardt. We certainly are prepared to come back to 
you for anything we need. Absolutely.
    Mr. Amodei. Listen, I am not anticipating it, but if that 
happens, it would be nice to know that, hey, guess what? We got 
into a big wrestling match--I am just speaking hypothetically--
with the SHPO for XYZ jurisdiction, and guess what? What we 
thought was going to cost a million bucks is now a $3 million 
bill. And in the National Historic Preservation Act, we do not 
have a way out.
    I am also concerned on that in terms of, if there is a 
disaster, if there needs to be something that is the equivalent 
of a nationwide whatever, exemption or something for Federal 
facilities to do their thing, because I am assuming the fact 
that you have asked for that means that is not in that statute 
right now.
    Mr. Bernhardt. Well, I think this request is more for 
recognizing that there is going to be a need to do greater SHPO 
work, not for our stuff but for the stuff of private owners and 
others. As a result of the National Historic Preservation Act, 
somebody's house may have been devastated, so they are going to 
have a lot more--when they go deal with the SHPO, there is 
going to be a bigger line there than normal. So this is to help 
facilitate that SHPO being able to move quicker, so that the 
line is not as long.
    Mr. Amodei. Okay.
    Mr. Bernhardt. It is not really designed for us, for what 
we do on our properties.

                  DAMAGES TO LEASED/RENTAL PROPERTIES

    Mr. Amodei. So then I guess that leaves me with the next 
one. Can you give me a feel for how much of this is for no 
kidding, U.S.-owned properties, whether it is Parks, Interior, 
Wildlife, whoever, and what is for leased properties, which the 
U.S. does not own?
    Mr. Bernhardt. In terms of the facilities, I would have to 
come back to you with an answer to that.
    [The information follows:]

                   Repairs for Leased/Rented Property

    The funding request is for repairs of FWS and NPS owned facilities.

    Mr. Amodei. Okay.
    Mr. Bernhardt. Because I want to say the vast lion's share 
of what we are asking for, if it says construction, if it says 
facilities, if it says debris removal, those are happening on 
our properties, okay? With the exception that, obviously, USGS 
streamgages are all over.
    But to be honest, I am aware that at least in Puerto Rico, 
for example, the building that USGS operates is a rental. So 
there are some leaseholds that we would be working with.
    Mr. Amodei. Okay. And I guess the context of the question, 
to make it even more clear, is I would hope that the leases 
that the department has entered into, especially in areas that 
are prone to flooding, wind, etc., we talk about whose 
responsibility it is to fix those. And if you end up having to 
fix it for landlord, that we have a recovery mechanism so that 
we are not exposed to, ``We paid to fix Amodei's rental 
property that he is leasing out to XYZ.''
    Mr. Bernhardt. That is a very good point. I will look into 
it.
    Mr. Amodei. Okay.
    Ms. McCollum. Will the gentleman yield?
    Mr. Amodei. Sure.

                         HISTORIC PRESERVATION

    Ms. McCollum. I understand you doing triage and 
prioritizing, and we expect that from you. We are glad you do 
that. But the Historic Preservation Fund has grants, which 
means that there is a match on it. It is a grant.
    It is my understanding there is no funding for Historic 
Preservation in this supplemental. These are our fellow 
citizens. These are our territories. We are all in this 
together. In past hurricanes, both Sandy and Katrina, Congress 
provided $50 million for Historic Preservation Fund grants.
    It is my understanding that, at this point in time, on this 
supplemental, that is a zero recommendation from the 
administration. I think we are in agreement that we should 
start talking about making these grants available sooner rather 
than later or maybe never.
    So is that correct? You are at zero? And if so, are you 
planning, in the future, on asking for what we did for other 
hurricanes?
    You might need to go back. I know everybody is still 
crunching numbers. But I think you have heard from several of 
us that we do not know why we are treating this supplemental so 
differently.
    Mr. Bernhardt. Well, I will be very honest with you, and I 
am pretty certain that you are correct in your assumption of 
zero. I would tell you that this is our request.
    Mr. Amodei. Just one more thing, if I could, Mr. Chairman.
    Ms. McCollum. I thank the gentleman for yielding.

                               RESILIENCY

    Mr. Amodei. Yes. And this kind of follows on to that.
    I have heard and understand the discussion on hardening of 
infrastructure, and even the habitat-related one and all that, 
and that is fine. I would just say that part of me thinks, and 
from your background, you will understand this, that there will 
be those of us watching in anticipation of passing meaningful 
legislation regarding other natural disasters, which may one 
day include fires. So when we talk about restoring habitats in 
areas with endangered species or that telephone poles burn 
sometimes and we think maybe it would be better to put them 
underground, and I am just throwing that out there off the top 
of my head, that this will be precedent-setting as far as 
different hardening in different environments.
    So I will just throw that out and say I am looking forward 
to seeing how you folks do this, and it ought to be fun.
    Thank you, Mr. Chairman. I yield back.
    Mr. Calvert. Ms. Kaptur.
    Ms. Kaptur. Thank you very much, Secretary Bernhardt, for 
being here today, for your experience, and for your work.

                         PUERTO RICO REBUILDING

    How capable is the Government of Puerto Rico in planning 
for its own future and the rebuilding of the island? Or through 
the funding that we provide, do we have to ensure that there 
are expert land planners--I have not seen it. In all the 
hearings we have been in, on our Energy Subcommittee, on this 
subcommittee, this is the first map I have seen that even--I 
mean, this is like 1 percent of what we need in order to 
intelligently plan rebuilding.
    And I support the money for USGS, the $20-plus million that 
is in here. Excellent decision there.
    But who is actually in charge of the planning? You have a 
really complex topographical and geologic situation here, quite 
unusual, different than Texas, different than Florida. And I 
keep asking the question, where is the key land planning 
lodged? Who is doing that?
    How do you answer that question?
    Mr. Bernhardt. Well, I try to answer that question very 
honestly, and my first point would be that the one place I know 
it is not lodged is the Department of the Interior.
    Ms. Kaptur. Okay.
    Mr. Bernhardt. But that said, in general, if you were 
dealing with your home State, that would all be very clear, 
wouldn't it?
    Ms. Kaptur. Yes.
    Mr. Bernhardt. I think that that is a bit of what I spoke 
about earlier in terms of the magnitude of dealing with this 
particular challenge.
    Now it is very easy for us in Interior to account for the 
properties we manage and administer.
    Ms. Kaptur. We do not have a map. I do not have a map of 
that after I do not know how many hearings we have had.
    Mr. Bernhardt. You know what, I certainly should be able--
and I am going to say ``should'' so I do not let you down. But 
I should be able to give you a map of Puerto Rico and anywhere 
else you want that has where our holdings primarily are.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Ms. Kaptur. I will just share with you that when we had the 
Army Corps before us on the Energy Committee, they gave us a 
map with none of this, some lines sort of showing us where 
maybe the grid might be restored.
    Mr. Bernhardt. I think I am familiar with that map.
    Ms. Kaptur. But it does not have the elevation, the 
streams. I keep saying to myself the question, okay, so if this 
is vulnerable again, what about geothermal? Does that make 
sense? And if so, where?
    So if we are going to be doing something in a national park 
or restoring whatever here, that you can wheel out power to 
other places, because obviously the island is very 1950s in 
terms of its infrastructure.
    But I guess what has me more and more concerned as I sit in 
these hearings is it is fragmented. There is not really a team 
that has a leader that thinks about how you put the components 
together.
    Mr. Bernhardt. The way it is actually set up now as we move 
into the recovery is FEMA will continue to be the leader, I 
believe. Then, for example, we have a very specific role in the 
longer term recovery, and that role is basically natural and 
cultural resources. That falls to us.
    And the strategy does have different players with different 
pieces.
    Ms. Kaptur. And who heads that team?
    Mr. Bernhardt. Who determines the team?
    Ms. Kaptur. Which human being in the United States of 
America's Government heads that team?
    Mr. Bernhardt. I can get you that name this afternoon.
    Ms. Kaptur. Okay. Do you think they are lodged at FEMA?
    Mr. Bernhardt. I am certain of that.

                      NATIONAL PARK ENTRANCE FEES

    Ms. Kaptur. Okay. I have another question dealing with two 
topics that do not relate to rebuilding here. One is whether 
the department intends to double the entry fees for national 
parks, for selected national parks. Is that still a front-
burner item there or have you sort of become more reasonable?
    Mr. Bernhardt. Well, I believe we extended the comment 
period. The comment period is extended for a while. We will get 
additional comment. After we get comments, which is on a 
proposal to raise fees at 15 parks, after we get comments, we 
will address the comments, and I am sure make a decision and 
communicate with you at that time.
    Ms. Kaptur. All right. Very good. I am glad it is under 
review.
    I do not think the American people should be saddled with 
higher fees in view of--you know, in my area, people have not 
had a raise in 20 years. Sometimes the national parks are the 
only place--that is where they go for vacations. Sometimes they 
do not go to Denali because they cannot afford the gas to get 
out there. But even the dunes up in Michigan and places like 
that, it is expensive to travel.
    I kept thinking, well, probably because our national parks 
are so overcrowded, they are charging an entry fee to keep 
people out. I mean, that is what the Russians would do, make it 
harder to get someplace. I hope we are not going that direction 
in this country. We would like our people to enjoy the natural 
resources of this country. We need to increase your budget so 
that you have the kind of staffing and the improvements that 
are needed at these parks.
    So that is my point of view.

                       IMPORT OF TROPHY ELEPHANTS

    But my second question is, is the department reconsidering 
the import of trophy elephants, based on what the President has 
done? Is it rescinded?
    Mr. Bernhardt. The department is absolutely reviewing the 
program across-the-board and absolutely doing that.
    Ms. Kaptur. You put a stay on it for the moment then?
    Mr. Bernhardt. As it relates to Zimbabwe, there was a 
suspension of an endangerment finding. That was modified. And 
that has been resuspended.
    Mr. Calvert. Okay.
    Ms. Kaptur. All right.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.

                                MAPPING

    Ms. Kaptur talked about maps, and I am obviously concerned 
about what is going on not just because of the recent 
hurricanes. Part of this $20 million for the USGS is to 
potentially collect data that would be helpful in the future, 
that we can model for future events.
    As you may know, 245,000 acres in Northern California, 
8,900 structures, 6,900 of those were homes, that environment 
was significantly disrupted. We hope there would be value in 
collecting a three-dimensional evaluation, elevation mapping 
data for these areas affected by the wildfires.
    The USGS 3D elevation program typically partners with State 
and local entities who share costs requiring that data, as you 
know. Puerto Rico and the U.S. Virgin Islands are not capable 
of doing that, so we need to make sure that we get this data 
collected.
    They are unable, because they are both bankrupt. It is 
pretty well-known. And getting a cost-sharing agreement from a 
stone is impossible.
    So I would hope that we would also look at California. You 
may want to comment a little bit about California while you are 
here, David.
    Mr. Bernhardt. I do not have anything in our request as it 
relates to that specifically. But I do know that data would be 
very helpful and very important. Elevation plays a key role in 
assessments of the speed at which things move, et cetera. It 
would be helpful information to have.
    Mr. Calvert. My prediction is that this is not going to be 
the last supplemental. We are going to hopefully do the 
supplemental soon. We will be working together to look at your 
proposal and the administration's proposal from the Interior 
perspective and try to fashion something that is going to work. 
Then we will be looking down the road at what has not been 
evaluated, because I know that not all the evaluations have 
been done.
    Mr. Bernhardt. That is true.
    Mr. Calvert. And we need to look at this seriously and see 
what we can do about this in the future, a future supplemental 
that will have.
    With that, Ms. McCollum, do you have any additional 
questions or comments?

                          COST-SHARING WAIVERS

    Ms. McCollum. Thank you, Mr. Chair. This is just for 
putting this on the record.
    It is clear that citizens of this country expect to be 
treated fairly and with equity. And the citizens in the two 
areas that we have been focused on, mostly the Virgin Islands 
and Puerto Rico, have found themselves with formulas and cost 
shares in the past that have dramatically impacted, I would say 
punitively impacted, our fellow citizens in both of these 
territories.
    As the chairman pointed out, and as we do quite often on 
the Appropriations Committee, we are trying to equalize that 
all across-the-board, not just in our Appropriations 
subcommittee, but in others.
    So when it comes to waivers and cost-sharing, I would hope 
that the Department of Insular Affairs would work with us to 
point out where these inequities and these injustices lie, so 
that we can do something about it. Also, as the chairman 
pointed out, the Administration must take into account that 
many of our fellow citizens in these territories, their 
governments cannot do these matches, cannot do these waivers. 
So it sounds good on paper, but what we are actually delivering 
to our fellow citizens might fall far short.

                            VIEQUES CLEAN-UP

    With that, both the chairman and I serve on the Department 
of Defense, so I have been bringing this next issue up every 
time. I just want to know where we are with the Vieques Island 
cleanup. It should not fall on the Department of the Interior 
to clean up unexploded ordnance.
    I know that people were working together to get an 
assessment on that situation. If you could either elaborate on 
it today or let me know later how it is going with the 
Department of Defense?
    Mr. Chairman, I am speaking for both of us right now. 
Correct me if I am wrong. I think you and I would be happy to 
bring both parties together, being on both committees, Interior 
and Defense, to make sure this is done in an expedited fashion, 
and that the Department of Defense expedites anything it needs 
to do. The cleanup of Vieques should not fall solely on the 
Department of the Interior to take the lead, when you have so 
many other things to do there.
    So anything you want to enlighten the chair and I about, we 
stand ready to help you.
    Mr. Bernhardt. I will commit that, if we have problems, we 
will come talk to both of you on that.
    And I am very sensitive to the California stuff and will 
work with you on that.
    Mr. Calvert. Did you have an additional question?
    Mr. Amodei. No, Mr. Chairman.
    Mr. Calvert. Okay, no additional questions.
    Thank you. I appreciate you coming out here today. Good 
luck. I know you have just started. You have a lot of work to 
do, but thanks for what you are doing. We will see you soon.
    And we are adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    





                               I N D E X

                              ----------                              

                          U.S. Forest Service
                 FY 2018 Supplemental Oversight Hearing
                    November 29, 2017, Rayburn 2007

                                                                   Page
2017 Hurricane Damage............................................     4
Biography--Chief Tony Tooke......................................    10
Boundary Waters Canoe Area.......................................    29
California Wildfires.............................................     3
Canadian Wildfires...............................................    29
Capital Improvement..............................................    21
Disaster Response................................................    21
Emerald Ash Borer................................................    25
Fire Response Coordination.......................................    27
Hazardous Fuels Reduction........................................  3,19
Hurricane Damage.................................................    12
Hurricane Damage Assessments.....................................    11
Hurricane Response...............................................     4
Invasive Species.................................................    24
Opening Remarks of Chairman Calvert..............................     1
Opening Remarks of Chief Tony Tooke..............................     4
Opening Remarks of Ms. McCollum..................................     2
Post-Fire Restoration............................................  3,13
Post-Hurricane Recovery..........................................     5
Post-Hurricane Recovery: Puerto Rico............................. 23,24
Power Grid Turn Off..............................................    30
Private to Federal Affected Areas Ratio..........................    21
Projected Cost of Wildfire.......................................    20
Puerto Rico......................................................    23
Questions for the Record from Chairman Calvert...................    31
Reforestation....................................................    19
Santa Rosa Fires.................................................    11
Statement of Chief Tony Tooke....................................     7
Supplemental Request................................... 2,3,11,12,14,20
Supplemental Request: State and Private Forestry.................    13
Timber Harvesting................................................    28
Watershed Protection............................................. 12,22  
Wildfire Damage Assessments......................................    11
Wildfire Funding.................................................  3,14
Wildfire Response................................................     5

                    U.S. Department of the Interior
                 FY 2018 Supplemental Oversight Hearing
                    November 30, 2017, Rayburn 2007

Assistance: Puerto Rico and the U.S. Virgin Islands..............    81
Biography--Deputy Secretary David Bernhardt......................    59
Caneel Bay....................................................... 66,69 
Construction: Fish and Wildlife Service..........................    80
Contracting......................................................    68
Cost-Sharing Waivers.............................................    78
Damage Assessments...............................................    60
Leased/Rental Properties: Damages................................    72
Leased/Rental Properties: Repairs................................    72
Federal Emergency Management Agency (FEMA): Matching Grants......    65
Federal Emergency Management Agency (FEMA): Mission Volunteers...    62
Federal Emergency Management Agency (FEMA): Reimbursement........ 63,67
Green Infrastructure.............................................    69
Habitat Restoration..............................................    70
Historic Preservation...................................... 61,62,71,72    
Impacted Site Visits.............................................    66
Import of Trophy Elephants.......................................    77
Mapping..........................................................    77
Miccosukee K-12 School.......................................  61,62,70
National Park Entrance Fees......................................    76
Opening Remarks of Chairman Calvert..............................    39
Opening Remarks of Deputy Secretary David Bernhardt..............    41
Opening Remarks of Ms. McCollum..................................    40
Puerto Rico Rebuilding...........................................    73
Questions for the Record from Chairman Calvert...................    80
Questions for the Record from Ranking Member Lowey...............    81
Resiliency................................................. 61,62,70,73    
Statement of Deputy Secretary David Bernhardt....................    56
Supplemental Request.............................................    63
Territories......................................................    64
Tracking Contaminants Pathways...................................    81
Vieques Clean-Up.................................................    78
Virgin Islands School............................................ 61,62

                                  <all>
</pre></body></html>
